             United States Department of Justice
                  Office of the Inspector General
                                    Audit Division




AUDIT REPORT



 DEPARTMENT OF
    JUSTICE
 DRUG DEMAND
  REDUCTION
   ACTIVITIES




 FEBRUARY 2003

    03-12
                      DEPARTMENT OF JUSTICE
                DRUG DEMAND REDUCTION ACTIVITIES

                               TABLE OF CONTENTS


EXECUTIVE SUMMARY ......................................................................... 1
  Summary of Audit Findings ................................................................ 2
       I.    Drug Demand Reduction Resources.......................................... 2
       II. Effectiveness of Drug Demand Reduction Efforts ........................ 3
       III. Coordination of Drug Demand Reduction Activities ..................... 4
       IV. DEA Drug Demand Reduction Activities and Funding................... 5
       V. OIG Recommendations........................................................... 5
INTRODUCTION .................................................................................. 7
  History of Federal Drug Control Efforts ................................................ 7
  Federal Drug Control Budget .............................................................. 9
  Federal Drug Demand Reduction Budget............................................ 10
FINDINGS AND RECOMMENDATIONS ................................................... 13
  I.   DRUG DEMAND REDUCTION RESOURCES ..................................... 13
       DOJ Drug Demand Reduction Programs........................................ 13
       Analysis of Program Missions, Strategic Goals and Objectives.......... 14
            Federal Bureau of Prisons....................................................... 15
            Office of Community Oriented Policing Services......................... 17
            Drug Enforcement Administration............................................ 19
            Office of Justice Programs ...................................................... 22
            Conclusion - Analysis of Program Missions, Strategic
            Goals and Objectives............................................................. 27
       Analysis of Financial Reporting Methodologies ............................... 28
            Federal Bureau of Prisons....................................................... 29
            Office of Community Oriented Policing Services......................... 29
            Drug Enforcement Administration............................................ 30
            Office of Justice Programs ...................................................... 30
       Revisions to the ONDCP Circulars ................................................ 32
       Conclusion ............................................................................... 33
       Recommendations..................................................................... 34
  II. EFFECTIVENESS OF DRUG DEMAND REDUCTION EFFORTS ............. 35
       Overall Effectiveness of Federal Drug Control Efforts ...................... 35
       Overall Effectiveness of Federal Drug Demand Reduction Efforts ...... 36
       Effectiveness of DOJ Performance Indicators ................................. 39
          Federal Bureau of Prisons....................................................... 40
          Office of Community Oriented Policing Services......................... 42
          Drug Enforcement Administration............................................ 43
          Office of Justice Programs ...................................................... 44
       Data Reliability ......................................................................... 45
       Conclusion ............................................................................... 47
       Recommendations..................................................................... 47
  III. COORDINATION OF DRUG DEMAND REDUCTION ACTIVITIES .......... 48
       Analysis of DOJ Drug Demand Reduction Activities ........................ 48
       Coordination of DOJ Drug Demand Reduction Efforts...................... 50
       Recommendation ...................................................................... 51
  IV. DEA DRUG DEMAND REDUCTION ACTIVITIES AND FUNDING .......... 52
       DEA Drug Demand Reduction Activities ........................................ 52
       DEA Drug Demand Reduction Resources ...................................... 55
       DEA Drug Demand Reduction Expenditures .................................. 56
       Conclusion ............................................................................... 56
       Recommendation ...................................................................... 57
APPENDIX I - STATEMENT ON COMPLIANCE WITH LAWS AND
  REGULATIONS .............................................................................. 58
APPENDIX II - STATEMENT ON MANAGEMENT CONTROLS ....................... 60
APPENDIX III - OBJECTIVES, SCOPE, AND METHODOLOGY ..................... 61
APPENDIX IV - OFFICE OF JUSTICE PROGRAMS BUREAUS,
  PROGRAM OFFICES, AND AGENCY-WIDE SUPPORT OFFICES ............... 64
APPENDIX V - DEPARTMENT OF JUSTICE STRATEGIC PLAN FOR
  FY 2001 – 2006, STRATEGIC OBJECTIVES BY GOAL ........................... 66
APPENDIX VI - OFFICE OF NATIONAL DRUG CONTROL POLICY
  NATIONAL DRUG CONTROL STRATEGY, STRATEGIC
  OBJECTIVES BY GOAL.................................................................... 70
APPENDIX VII - OFFICE OF JUSTICE PROGRAMS PERFORMANCE
  INDICATORS ................................................................................ 74
APPENDIX VIII - OFFICE OF JUSTICE PROGRAMS DATA SOURCES
  FOR PERFORMANCE INDICATORS.................................................... 78
APPENDIX IX - FEDERAL BUREAU OF PRISONS RESPONSE TO THE
  DRAFT REPORT ............................................................................. 81
APPENDIX X - OFFICE OF COMMUNITY ORIENTED POLICING
  SERVICES RESPONSE TO THE DRAFT REPORT................................... 83
APPENDIX XI - DRUG ENFORCEMENT ADMINISTRATION RESPONSE
  TO THE DRAFT REPORT.................................................................. 85
APPENDIX XII - OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
  DRAFT REPORT ............................................................................. 90
APPENDIX XIII - JUSTICE MANAGEMENT DIVISION RESPONSE TO
  THE DRAFT REPORT ...................................................................... 94
APPENDIX XIV - OFFICE OF THE INSPECTOR GENERAL COMMENTS
  ON THE JUSTICE MANAGEMENT DIVISION RESPONSE TO THE
  DRAFT REPORT ............................................................................. 97
APPENDIX XV - ANALYSIS AND SUMMARY OF ACTIONS
  NECESSARY TO CLOSE THE REPORT ................................................ 99
                       DEPARTMENT OF JUSTICE
                 DRUG DEMAND REDUCTION ACTIVITIES

                               EXECUTIVE SUMMARY


       A strategic objective of the Department of Justice (DOJ) is to “break
the cycle of drugs and violence by reducing the demand for and use and
trafficking of illegal drugs.”1 Early federal drug control efforts concentrated
primarily on enforcement. However, it has been widely recognized that
enforcement alone was not sufficient and that federal efforts to reduce the
demand for drugs were necessary. These drug demand reduction efforts
include those policies and programs dealing with drug abuse education,
prevention, treatment, research, rehabilitation, drug-free workplace
programs, and drug testing.2

       The Office of the Inspector General (OIG) conducted this audit to
identify and review the DOJ’s drug demand reduction activities. The
objectives of the audit were to (1) identify all DOJ programs that related to
drug demand reduction, to quantify the total amount of DOJ obligations for
each program, and to verify that financial information provided to the Office
of the National Drug Control Policy (ONDCP)3 was prepared in accordance
with its circulars; (2) determine whether the DOJ performance measures are
adequate to determine the success of programs; (3) identify whether DOJ
drug demand reduction activities were duplicative and whether DOJ
components were coordinating drug demand reduction efforts; and
(4) review the DEA activities and funding dedicated to drug demand
reduction.

      In this audit, we conducted approximately 50 interviews with over
60 officials from the Federal Bureau of Prisons (BOP), Office of Community
Oriented Policing Services (COPS), Drug Enforcement Administration (DEA),
Office of Justice Programs (OJP), Office of Legal Policy (OLP), Justice
Management Division (JMD), and the ONDCP. Additionally, we conducted
fieldwork at the DEA Rocky Mountain Field Division and the BOP Florence

1
 The U.S. Department of Justice, Fiscal Years 2001- 2006, Strategic Plan, dated
November 2001 (DOJ Strategic Plan).
2
    The Office of National Drug Control Policy, FY 2001 – FY 2007 Strategic Plan.
3
 The ONDCP is a component within the Executive Office of the President of the United
States, and is not a part of the DOJ. The ONDCP was created to set national drug control
priorities and implement the National Drug Control Strategy.

                                              -1-
Federal Correctional Institute. We also reviewed DOJ policies and
procedures, program information, strategic and program plans, budget
documentation, organizational structures, Congressional testimony, and
prior OIG and General Accounting Office reports related to drug demand
reduction.


Summary of Audit Findings

       As reported in the ONDCP FYs 2002 and 2003 budget summaries, the
total federal drug demand reduction budget for FY 2001 was $5.9 billion, of
which the DOJ reported drug demand reduction funding of $325 million. We
concluded that the DOJ programs reported to the ONDCP do not accurately
reflect the DOJ drug demand reduction activities.

      Our audit also disclosed that none of the current performance
indicators are adequate to measure the effectiveness of the DOJ drug
demand reduction programs, and the DOJ has not established a formalized
mechanism for sharing drug demand reduction program information among
the components.

       Finally, we found that the DEA’s FY 2001 obligations dedicated to drug
demand reduction consisted of only $3 million (0.2 percent) of its total
obligations. In our judgment, the DEA should evaluate what impact it can
achieve on reducing the demand for drugs with such a small percentage of
its funding devoted to this effort.


I.       Drug Demand Reduction Resources

       Based on the DOJ Management Assertion Statements submitted to the
ONDCP, we determined that during FY 2001 the DOJ reported $336 million4
in total drug demand reduction obligations. The $336 million included
19 programs administered by the BOP, COPS Office, DEA, and OJP. We
identified an additional program administered by OJP with total reported
FY 2001 obligations of $50 million reported as state and local assistance
that, in our judgment, should have been reported as drug demand
reduction. As a result, our audit included a total of 20 DOJ programs with
total reported FY 2001 obligations of about $386 million.



4
    The amounts included in this report have been rounded, as appropriate.

                                            -2-
       For each of the programs reported as drug demand reduction to the
ONDCP, we analyzed the program’s mission, strategic goals, and objectives
to identify specific drug demand reduction activities within the DOJ. Based
on our analysis we determined that the programs reported to the ONDCP do
not, in our judgment, accurately reflect the DOJ’s drug demand reduction
efforts. We identified 10 programs with total reported obligations of
$223 million that were not directly related to drug demand reduction. As a
result, the DOJ obligations directly related to drug demand reduction for the
remaining 10 DOJ programs were actually $163 million, not the $336 million
that was reported in FY 2001.

      Additionally, our analysis of the methodologies used to prepare
drug-related financial information reported to the ONDCP revealed that the
estimates used by the COPS Office, DEA, and OJP were not adequately
supported. The drug demand reduction obligations reported for 12
programs within the COPS Office, DEA, and OJP were based on estimated
percentages applied to the total program obligations. The COPS Office and
OJP could not provide us with any information to support the rationale used
in developing estimated percentages or the relationship between the
estimates and any drug demand reduction activities. Further, the DEA’s
estimated percentage, based in part on salaries and benefits, did not include
all Demand Reduction Section staff. Based on our review of the reported
programs, the evidence indicates that the DOJ’s reported drug demand
reduction activities should be reduced by at least half.


II.   Effectiveness of Drug Demand Reduction Efforts

       Despite the fact that significant resources have been allocated to drug
demand reduction activities, the demand for drugs as a percentage of the
population has not significantly decreased since 1989.5 However, these
statistics do not necessarily reflect the impact that individual programs may
have in reducing the demand for drugs. In order to assess the effectiveness
of the DOJ drug demand reduction efforts, we analyzed the performance
indicators established by the components for each program to determine if
they adequately measure program effectiveness and whether the data
reported for the performance indicators was adequately supported.

     Our audit revealed that none of the current performance indicators
used by the BOP, COPS Office, or OJP are adequate to measure program

5
 The Department of Health and Human Services (HHS), Substance Abuse and Mental
Health Service Administration (SAMHSA), 1998 National Household Survey on Drug Abuse.

                                        -3-
effectiveness. Generally, the performance indicators used by the three DOJ
components are output based, measuring the number of tasks and activities,
rather than outcome based, measuring the results and effectiveness of
program activities. Further, the DEA has not established any performance
indicators for its drug demand reduction programs, even though drug
demand reduction is one of the DEA’s strategic objectives.

      Additionally, we identified the following problems related to the data
used to report results for the performance indicators:

    •   The BOP Sentry system,6 reported as the source of data for all of the
        BOP performance indicators, does not record information related to the
        number of drug counseling hours for inmates. Instead, BOP officials
        estimated the number of drug counseling hours based on the number
        of program participants.

    •   The accuracy of the data used to report performance indicators for the
        COPS Office could not be verified because the original data was not
        retained. Further, the original data could not be recreated because the
        COPS Management System (CMS) does not have the capability of
        generating reports for a specific point-in-time.

    •   The OJP did not verify the data reported for 38 of the 42 performance
        indicators used for its 12 programs included in this audit.


III.    Coordination of Drug Demand Reduction Activities

       We found that that multiple DOJ programs address similar drug
demand reduction purpose areas; however, most of these programs
provided services to different categories of recipients or different
geographical locations. For example, we found that the DEA and OJP both
administer programs that provide drug abuse education; the BOP and OJP
both administer programs that provide drug treatment for offenders; and the
DEA and OJP both administer programs that provide assistance to
communities in implementing a community-wide approach to prevention
efforts. Although our audit did not disclose any significant duplication of
drug demand reduction activities among the DOJ components, since multiple
programs address similar purpose areas, the components should have a
mechanism for sharing information, resources, and technical assistance.

6
 The Sentry system is the BOP’s national on-line automated information system used to
provide operational and management information requirements.

                                         -4-
Currently, coordination efforts appear to be ad hoc, occurring only when one
of the participants requires additional financial or technical resources;
however, there is no formalized mechanism within the DOJ for sharing
information among the components, coordinating program activities, sharing
resources, and exchanging technical assistance.


IV.   DEA Drug Demand Reduction Activities and Funding

      The DEA’s drug demand reduction efforts are largely conducted by its
Demand Reduction Section, which was established in 1986 to support and
coordinate the DEA’s prevention activities. The Demand Reduction Section is
located within the Office of Congressional and Public Affairs, which also
includes the (1) Museum Staff, (2) Information Services Staff,
(3) Congressional Affairs Section, (4) Public Affairs Section, and (5) Audio
Visual Staff.

       During the period covered by our audit, the DEA’s Demand Reduction
Section consisted of 8 headquarters staff and 27 Demand Reduction
Coordinators (DRCs) located in the field or other operational division offices.
According to the DEA, each DRC reports to the Special Agent in Charge of
the field division and is responsible for directing his or her own drug demand
reduction activities.

       In FY 2001, the DEA reported to the ONDCP total obligations for its
Demand Reduction Section of about $3 million, which equates to only
0.2 percent of the $1.4 billion total DEA obligations. We believe the DEA
should consider what potential impact it can have on the demand for drugs
when only 0.2 percent of its funding was dedicated to drug demand
reduction in FY 2001. Based on the DEA’s recent statements, it appears that
the DEA plans to devote additional resources to its drug demand reduction
efforts in the future.


V.    OIG Recommendations

      In this report we recommend that the components ensure that
reported demand reduction activities and funding are accurate and
supported by adequate documentation. We further recommend that the
components develop verifiable and measurable outcome based performance
indicators for drug demand reduction programs, and that DOJ and the
components establish a formalized mechanism for coordinating and sharing
information related to drug demand reduction activities. Finally, we

                                     -5-
recommend that the DEA evaluate what impact it can achieve on its stated
objective “to educate local audiences with aggressive drug demand reduction
programs” with such a small percentage of its funding (0.2 percent) devoted
to drug demand reduction activities.

      The details of the results of our audit are contained in the Findings and
Recommendations section of this report. Additional information related to
our audit objectives, scope, and methodology appears in Appendix III.




                                     -6-
                                    INTRODUCTION


      A strategic objective of the DOJ is to “break the cycle of drugs and
violence by reducing the demand for and use and trafficking of illegal
drugs.”7 This objective is incorporated in the DOJ Strategic Plan, which
includes the goals, objectives, and strategies of the DOJ for achieving its
mission. The DOJ’s strategies for achieving this objective include:

      •   Supporting programs providing drug testing, treatment, and graduated
          sanctions for persons under the supervision of the criminal system.

      •   Preventing juvenile use and abuse of drugs.

      •   Reducing demand for and use and trafficking of illegal drugs.

       The OIG’s Audit Division conducted this audit to identify and review
the DOJ’s drug demand reduction activities. The objectives of the audit were
to (1) identify all DOJ programs that related to drug demand reduction, to
quantify the total amount of DOJ obligations for each program, and to verify
that financial information provided to the ONDCP was prepared in
accordance with its circulars; (2) determine whether the DOJ performance
measures are adequate to determine the success of programs; (3) identify
whether DOJ drug demand reduction activities were duplicative and whether
DOJ components were coordinating drug demand reduction efforts; and
(4) review the DEA activities and funding dedicated to drug demand
reduction.


History of Federal Drug Control Efforts

       Federal drug control efforts have been a long-standing national
priority.8 In response to the nation’s growing drug problem, Congress
passed the Controlled Substances Act, Title II of the Comprehensive Drug
Abuse Prevention and Control Act of 1970. This law established a single
system of control for both narcotic and psychotropic drugs for the first time.
In 1973, President Nixon declared “an all-out global war on the drug
menace.”


7
 The U.S. Department of Justice, Fiscal Years 2001- 2006, Strategic Plan, dated
November 2001 (DOJ Strategic Plan).
8
    A Tradition of Excellence; The History of the DEA.

                                              -7-
       In early 1975, President Ford established the Domestic Council Drug
Abuse Task Force to assess the extent of drug abuse in America. The
resulting report recognized the necessity of drug demand reduction efforts in
addition to enforcement efforts. Drug demand reduction efforts include
those policies and programs dealing with drug abuse education, prevention,
treatment, research, rehabilitation, drug-free workplace programs, and drug
testing.9

       In 1986, Congress approved the Anti-Drug Abuse Act, authorizing
$6 billion over 3 years for interdiction and enforcement measures, as well as
drug demand reduction education and treatment programs. The 1986 Act
allocated a larger share of federal drug control funds for prevention and
treatment programs than did any other previous law. Prevention efforts
were also expanded by the 1986 Act with the creation of the White House
Conference for a Drug-Free America and the establishment of the Office for
Substance Abuse Prevention, both of which were aimed at community
prevention strategies.

      The Anti-Drug Abuse and Control Act of 1988 established the ONDCP
as part of the Executive Office of the President of the United States. The
ONDCP was charged with setting national priorities and implementing the
National Drug Control Strategy. The Violent Crime Control and Law
Enforcement Act of 1994 extended the ONDCP’s mission to assessing
budgets and resources relating to the National Drug Control Strategy, and
established specific reporting requirements in the areas of drug use,
availability, consequences, and treatment.

      Currently, the National Drug Control Strategy established by the
ONDCP includes 5 goals and 31 strategic objectives. The 5 goals of the
National Drug Control Strategy are listed on the following page.




9
    The Office of National Drug Control Policy, FY 2001 – FY 2007 Strategic Plan.

                                              -8-
              Goals of the National Drug Control Strategy

      1. Educate and enable America’s youth to reject illegal drugs as
         well as alcohol and tobacco.

      2. Increase the safety of America’s citizens by substantially
         reducing drug-related crime and violence.

      3. Reduce health and social costs to the public of illegal drug use.

      4. Shield America’s air, land, and sea frontiers from the drug
         threat.

      5. Break foreign and domestic drug sources of supply.


       Generally, the DOJ drug demand reduction programs fall under the
first and third goals of the National Drug Control Strategy. The DOJ’s inmate
treatment programs are included in the second goal.


Federal Drug Control Budget

       Pursuant to 21 U.S.C. § 1703(c)(1), federal agencies are required to
submit drug control budget information to the ONDCP for review,
certification, and inclusion in the consolidated National Drug Control Budget.
The total federal drug control budget reported in the ONDCP Budget
Summary includes those resources dedicated to both supply reduction
(enforcement) and drug demand reduction efforts. Historically, about
one-third of the total drug control budget has been dedicated to drug
demand reduction efforts. As reported in the ONDCP FYs 2002 and 2003
budget summaries, the federal drug control budget totaled $17.9 billion in
FY 2000, $18.1 billion in FY 2001, and $18.8 billion in FY 2002. Drug control
funding by agency is shown in the table on the following page.




                                     -9-
                              FEDERAL DRUG CONTROL BUDGET10
                                              ($ millions)
                                                             FY 2000       FY 2001       FY 2002
     Agency                                                   Final         Final        Enacted
     Department of Agriculture                           $        27.6 $        26.7 $        29.1
     Corporation for National & Community Services                 9.0           9.4           9.4
     Court Services & Offender Supervision Agency                 48.6          58.6          86.4
     Department of Defense                                     1,273.3       1,150.3       1,008.5
     Intelligence Community Management Account                    27.0          34.0          42.8
     Department of Education                                     598.0         634.1         659.5
     Department of Health & Human Services                     3,022.0       3,389.9       3,683.7
     Department of Housing & Urban Development                   310.0         309.3           9.0
     Department of Interior                                       35.9          39.5          38.8
     Federal Judiciary                                           679.6         756.8         819.7
     Department of Justice                                    7,357.5       8,074.1       8,140.1
     Department of Labor                                          64.3          78.8          79.2
     Office of National Drug Control Policy                      464.4         502.1         533.3
     Small Business Administration                                 3.5           3.5           3.0
     Department of State                                       1,301.3         289.8         832.6
     Department of Transportation                                814.9         795.8         591.4
     Department of Treasury                                    1,348.8       1,262.0       1,546.8
     Department of Veteran Affairs                               554.6         680.9         709.4
         Total Federal Drug Control Budget     $ 17,940.3 $                 18,095.6 $    18,822.7
     Source: The ONDCP, FYs 2002 and 2003 budget summaries.

      As shown above, the federal drug control budget increased by about
$900 million between FY 2000 and FY 2002. During the same period, the
DOJ’s drug control budget increased by about $800 million. The total DOJ
drug control budget comprised about 41 percent of the total federal budget
in FY 2000, 45 percent in FY 2001, and 43 percent in FY 2002.


Federal Drug Demand Reduction Budget

      Since 1987, the federal drug control budget, which includes those
resources dedicated to both supply reduction (enforcement) and drug
demand reduction, has more than tripled from $4.8 billion in 1987 to
$18.1 billion in FY 2001. As shown in the chart on the following page, the

10
  The total federal drug control budget includes those resources dedicated to both supply
reduction (enforcement) and drug demand reduction efforts.

                                                - 10 -
federal drug demand reduction budget has increased at about the same rate
as the total drug control budget.

                         NATIONAL DRUG CONTROL BUDGET
                                 BY FUNCTION11
                                                   ($ millions)


        $20,000

        $15,000

        $10,000

         $5,000

             $0
                1987

                       1988

                              1989



                                            1991

                                                    1992

                                                           1993

                                                                  1994

                                                                         1995

                                                                                1996

                                                                                       1997

                                                                                              1998

                                                                                                     1999
                                     1990




                                                                                                            2000
              Demand            Dom. Law Enf.                International             Interdiction
     Source: ONDCP Drug Policy, Strategy and Implementation.


      As reported in the ONDCP FY 2003 Budget Summary, approximately
$5.9 billion (33 percent) of the total federal drug control budget was
dedicated to drug demand reduction programs in FY 2001. The $5.9 billion
federal drug demand reduction budget consisted of about $3.3 billion
(19 percent) dedicated to treatment programs and $2.6 billion (14 percent)
dedicated to prevention programs.

      From the ONDCP FYs 2002 and 2003 budget summaries, we identified
the total federal and DOJ drug demand reduction budgets for FY 2000
through FY 2002. The DOJ drug demand reduction budget comprised
6 percent of the total federal drug demand reduction budget in FYs 2000 and
2001, and 5 percent in FY 2002, as shown in the table on the following page.

11
  For the functional areas in the table: (1) Demand (shown in blue) relates to funding for
drug demand reduction prevention and treatment activities; (2) Dom. Law Enf. (shown in
green) relates to funding for the enforcement of domestic drug laws; (3) International
(shown in yellow) relates to funding for drug control activities that are focused on or
conducted in foreign countries; (4) Interdiction (shown in red) relates to funding for
activities designed to interrupt the trafficking of illicit drug into the United States.

                                                     - 11 -
              FEDERAL DRUG DEMAND REDUCTION BUDGET
                                       ($ millions)
                                                      FY 2000       FY 2001       FY 2002
   Agency                                              Final         Final        Enacted
   Department of Agriculture                          $     16.2    $     16.2    $     17.7
   Corporation for National & Community Services              9.0           9.4           9.4
   Court Services & Offender Supervision Agency             37.5          47.0          73.4
   Department of Defense                                   100.9         102.5         109.5
   Department of Education                                 598.0         634.1         659.5
   Department of Health & Human Services                  3,016.3       3,389.9       3,683.7
   Department of Housing & Urban Development               161.2         160.8              0
   Department of Interior                                     1.1           2.6           2.6
   Federal Judiciary                                        98.1         146.7         157.5
   Department of Justice                                   297.6         325.2         300.2
   Department of Labor                                      64.3          78.8          79.2
   Office of National Drug Control Policy                  228.6         244.0         249.6
   Small Business Administration                              3.5           3.5           3.0
   Department of State                                         0              0            0
   Department of Transportation                             40.2          40.5          43.7
   Department of Treasury                                   18.0          17.1          17.9
   Department of Veteran Affairs                           554.6         669.8         697.1
              Total Federal Budget            $ 5,245.1 $ 5,888.0                 $ 6,104.2
   Source: The ONDCP FYs 2002 and 2003 budget summaries.

      Based on our analysis of the information in the above table, the total
federal budget for drug demand reduction programs has increased by about
$900 million (17 percent) from FY 2000 to FY 2002. During the same period
the DOJ drug demand reduction budget only increased about $3 million
(1 percent). As reported in the ONDCP FYs 2002 and 2003 budget
summaries, the DOJ drug demand reduction budget comprised about
4 percent of the total DOJ drug control budget for FYs 2000 through 2003,
and includes programs administered by the BOP, COPS Office, DEA, and OJP.




                                            - 12 -
                FINDINGS AND RECOMMENDATIONS


I.    DRUG DEMAND REDUCTION RESOURCES

      The drug demand reduction programs reported to the ONDCP do not
      accurately reflect the DOJ’s drug demand reduction efforts. In our
      judgment, of the 19 DOJ drug demand reduction programs included in
      the $336 million in FY 2001, 10 programs with obligations of
      $223 million were not directly related to drug demand reduction. We
      identified an additional program administered by OJP, with total
      reported FY 2001 state and local assistance obligations of $50 million
      that should have been reported as drug demand reduction. Therefore,
      the DOJ efforts directly related to drug demand reduction consisted of
      10 programs with total reported FY 2001 obligations of $163 million.
      Additionally, our analysis of the methodologies used to prepare
      drug-related financial information reported to the ONDCP revealed that
      the estimates used by the COPS Office, DEA, and OJP were not
      adequately supported.


DOJ Drug Demand Reduction Programs

      Pursuant to 21 U.S.C. § 1704 (d), federal agencies are required to
submit to the ONDCP, not later than February 1 of each year, a detailed
accounting of all funds expended by the agencies for National Drug Control
Program activities during the previous fiscal year. These detailed
accountings are reported to the ONDCP in each component’s Management
Assertion Statement. Although, the December 1999 ONDCP Accounting
Circular was revised effective May 30, 2002, the financial information
included in this report was prepared in accordance with the December 1999
ONDCP Accounting Circular.12

       We reviewed the FY 2001 DOJ Management Assertion Statements
submitted to the ONDCP to identify total DOJ drug demand reduction
programs and obligations. From the Management Assertion Statements, we
identified four DOJ components reporting drug demand reduction
obligations: the BOP, COPS Office, DEA, and OJP. The four components
identified 19 programs, as discussed in Finding I of this report, with total


12
  ONDCP Circular titled, Annual Accounting of Drug Control Funds, dated December 17,
1999, (December 1999 ONDCP Accounting Circular).

                                        - 13 -
reported FY 2001 drug demand reduction obligations of $336 million, as
shown in the table below.

                     DEPARTMENT OF JUSTICE
          FY 2001 DRUG DEMAND REDUCTION OBLIGATIONS
                                        ($ millions)

                                                                      FY 2001
                     DOJ Components & Programs                       Obligations
   Federal Bureau of Prisons                                             $ 38.233
      •   Drug Abuse Education Program
      •   Residential Drug Abuse Treatment Program
      •   Non-Residential Drug Abuse Treatment Program
      •   Transitional Drug Abuse Treatment Program
   Community Oriented Policing Services                                   64.207
      •   COPS in Schools Program
      •   Safe Schools Initiative
   Drug Enforcement Administration                                         3.012
      •   DEA Demand Reduction Section
      •   Integrated Drug Enforcement Assistance (IDEA) Program
   Office of Justice Programs                                            230.833
      •   Byrne Discretionary Grant Program
      •   Byrne Formula Grant Program
      •   Indian Alcohol and Substance Abuse Demonstration Program
      •   Criminal Records Upgrade Program
      •   Residential Substance Abuse Treatment Program
      •   Correctional Grant Programs
      •   Weed and Seed Program
      •   Safe Start Program
      •   Juvenile Justice Discretionary Grant Program
      •   Title V - Tribal Youth Programs
      •   Drug Prevention Demonstration Program
                         Total DOJ Obligations                       $   336.285



Analysis of Program Missions, Strategic Goals and Objectives

      For each of the programs listed in the above table, we identified the
program’s mission, strategic goals, and objectives. We reviewed the
strategic goals and objectives to determine whether they were consistent
with the DOJ and ONDCP strategic plans, listed respectively in Appendix V

                                            - 14 -
and Appendix VI of this report. Additionally, we reviewed each program’s
strategic goals and objectives, in conjunction with the program’s mission, to
determine whether the program was directly related to drug demand
reduction. As stated previously, drug demand reduction efforts, as defined
by the ONDCP, include those policies and programs dealing with drug abuse
education, prevention, treatment, research, rehabilitation, drug-free
workplace programs, and drug testing with an emphasis on reducing the use
of illicit drugs. The results of our review are detailed in the following
sections for each of the four components.


Federal Bureau of Prisons

        According to the BOP, its mission is to protect society by confining
offenders in the controlled environments of prisons and community-based
facilities that are safe, humane, cost-efficient, and appropriately secure, and
that provide work and other self-improvement opportunities to assist
offenders in becoming law-abiding citizens. The BOP consists of
102 institutions, 6 regional offices, a headquarters office, 2 staff training
centers, and 29 community corrections offices. The BOP is currently
responsible for the custody and care of approximately 165,000 federal
offenders.

       Since the passage of the Anti-Drug Abuse Acts of 1986 and 1988, both
of which included increased emphasis on and resources for drug treatment,
the BOP has enhanced its treatment programs. With the assistance of the
National Institute on Drug Abuse, the BOP has instituted a drug treatment
strategy that attempts to incorporate “proven effective”13 treatment
methods designed to provide treatment to federal offenders. In FY 2001,
the BOP reported total obligations for its drug demand reduction programs of
$38.2 million to the ONDCP, less than 1 percent of the BOP’s $4.3 billion
total agency obligations.

     The stated missions of each of the four drug demand reduction
programs reported by the BOP are:

     •   Drug Abuse Education Program provides inmates with specific
         instruction on the risks involved in drug using and abusing behaviors,
         presents strategies toward living a drug free lifestyle, while introducing
         the inmate to the concepts of drug treatment and motivating the

13
  The BOP Substance Abuse Treatment Programs, in the Federal Bureau of Prisons, Fiscal
Year 2001 Annual Report to Congress, dated January 2002.

                                        - 15 -
       inmate to enter and participate in the BOP’s Residential Drug Abuse
       Treatment Program.

   •   Residential Drug Abuse Treatment Program is designed for
       intensive drug abuse treatment. Inmates are housed separately in
       residential drug abuse treatment units for up to 12 months. The
       specialized drug units provide extensive assessment, treatment
       planning, and individual and group counseling.

   •   Non-Residential Drug Abuse Treatment Program consists of both
       group and individual therapy delivered through the psychological
       services department in each institution. This program offers flexibility
       of service delivery to inmates who are not eligible for or do not choose
       to enter the BOP’s Residential Drug Abuse Treatment Program.
       Non-residential treatment services are also provided as a follow-up to
       the BOP’s Residential Drug Abuse Treatment Program while inmates
       are awaiting release.

   •   Transitional Drug Abuse Treatment Program was developed for
       successful Residential Drug Abuse Treatment Program graduates who
       are released to the community under the BOP custody. The
       continuation of treatment, through community-based drug treatment
       is required of these inmates during this period of the inmate’s
       transition back to society. Additionally, the community transition
       program now accepts inmates who have not participated in a
       Residential Drug Abuse Treatment Program, but have later been
       identified to be in need of drug abuse treatment.

       As stated in the BOP strategic plan, the goal of the BOP’s four drug
demand reduction programs listed above is “to provide services and
programs to address inmate needs, providing productive use-of-time
activities, and facilitating the successful reintegration of inmates into society,
consistent with community expectations and standards.” The strategic
objective of the four BOP drug demand reduction programs is “to provide
residential drug abuse treatment for all inmates with a substance use
disorder who volunteer for treatment, encourage treatment participation,
and provide program completers with quality drug abuse treatment when
transferred to a Community Corrections Center.”

      Based on our analysis, the strategic goals and objectives for the four
BOP drug demand reduction programs are consistent with both the DOJ and
ONDCP drug demand reduction strategic goals and objectives. Specifically,
the programs fall under the DOJ strategic objective No. 6.4, “to provide

                                      - 16 -
services and programs to facilitate inmates’ successful reintegration into
society, consistent with community expectations and standards”; and the
ONDCP strategic objective No. 2.4, “to break the cycle of drug abuse and
crime.” Further, we determined that the four BOP programs, with total
reported FY 2001 obligations of $38 million, are directly related to drug
demand reduction. The primary focus of the BOP’s drug demand reduction
programs includes drug abuse education, prevention, treatment, and
rehabilitation efforts, which directly address drug demand reduction as
defined by the ONDCP.


Office of Community Oriented Policing Services

      The COPS Office was created by the Attorney General as a result of the
Violent Crime Control and Law Enforcement Act of 1994 (the 1994 Crime
Act). The 1994 Crime Act contained provisions for grants to states and local
municipalities across the country to focus on violent crime. The purpose of
the grants was to increase the hiring and deployment of police officers and
to advance community policing nationwide. The COPS Office administered
$8.8 billion in grants over a period of 6 years.

       Three primary goals of the COPS Office programs are to: (1) promote
the implementation of department-wide community policing in law
enforcement agencies across the country; (2) help develop an infrastructure
that will institutionalize and sustain community policing after federal funding
has ended; and (3) demonstrate and evaluate the ability of agencies
practicing community policing to significantly improve the quality of life by
reducing the levels of violence, crime and disorder in their communities.14
The COPS Office has instituted a wide variety of grants, including officer
hiring programs and other initiatives. In FY 2001, the COPS Office reported
total obligations for its drug demand reduction programs of $64.2 million to
the ONDCP, about 6 percent of the COPS Office’s $1 billion total agency
obligations.

     The stated missions and purposes of the two drug demand reduction
programs reported by the COPS Office are:

      •   COPS in Schools Program provides grant funding to state and local
          law enforcement agencies to fill school resource officer positions and
          enhance ongoing school safety programs. A requirement of the grant
          is that the law enforcement agency partner with a school in an effort

14
     The COPS Office COPS in Schools 2001, Application Instructions.

                                            - 17 -
      to create a safe school environment. The partnerships between the
      law enforcement agencies, schools, and communities focus on
      developing strategies to utilize program solving and community
      policing techniques to prevent school violence and the implementation
      of school safety plans. As defined by the COPS Office, school resource
      officer activities include efforts that: (1) address crime and disorder
      problems, gangs, and drug activities affecting or occurring in or around
      the school; (2) develop or expand crime prevention efforts;
      (3) educate school-aged students in crime prevention and safety;
      (4) develop or expand community justice initiatives for students;
      (5) train students in conflict resolution, restorative justice, and crime
      awareness; (6) assist in the identification of physical changes in the
      environment that may reduce crime in or around the school; (7) assist
      in developing school policy that addresses crime and recommend
      procedural changes.

  •   Safe Schools Initiative provides grant funding to state and local
      agencies to assist in delinquency prevention, community planning and
      development, school safety resources and technology development.
      According to the COPS Office, the funding allows recipients to purchase
      safety equipment in support of the continuation or enhancement of
      child welfare efforts within the community. The grant requirements
      are not specific as to what equipment will be funded under the grant;
      rather each item is considered on a case-by-case basis during the
      budget review process.

      The COPS Office has not developed its own strategic plan. Instead the
COPS Office stated in its FY 2003 OMB budget submission that the COPS in
Schools Program falls under the DOJ strategic objective No. 3.5, “to support
innovative cooperative and community-based programs aimed at reducing
crime and violence and promote resolution of racial tension.”

       Based on our analysis, the DOJ strategic goal and objective for the
COPS in Schools Program does not directly support any of the drug demand
reduction goals and objectives established in the ONDCP Strategic Plan. The
activities of school resource officers funded under the COPS in Schools
Program focus primarily on crime prevention and awareness, enforcement
efforts, and school safety, which do not specifically address any of the
ONDCP drug demand reduction efforts defined previously. Therefore, we
determined that COPS in Schools Program, with total reported FY 2001
obligations of $57 million, is not directly related to drug demand reduction.



                                    - 18 -
       In its FY 2003 OMB budget submission, the COPS Office did not
identify any DOJ strategic goals or objectives for its Safe Schools Initiative.
The COPS Office officials stated that the Safe Schools Initiative funding is
earmarked and appropriated by Congress on a year-to-year basis; therefore,
the program was not included in the COPS Office budget request. Based on
our analysis of the mission for the Safe Schools Initiative, we determined
that the program does not directly support any of the drug demand
reduction goals and objectives established in the ONDCP Strategic Plan. The
primary focus of the Safe Schools Initiative is to fund equipment that assists
in school safety, which does not specifically address any of the ONDCP drug
demand reduction efforts defined previously. Therefore, we determined that
the Safe School Initiative, with total reported FY 2001 obligations of
$7 million, is not directly related to drug demand reduction.

        The COPS Office agreed with our conclusion that the COPS in Schools
Program and the Safe Schools Initiative were not directly related to drug
demand reduction. The COPS Office officials stated that the programs were
initially reported as drug demand reduction based on a verbal agreement
between the ONDCP and COPS Office; however, none of the current COPS
Office officials responsible for reporting to the ONDCP were involved in the
initial agreement. As a result, the COPS Office officials could not provide
any explanation as to why the COPS Office initially agreed to report a portion
of these programs as drug demand reduction.


Drug Enforcement Administration

       The DEA was established by Executive Order in July 1973 to create a
single federal agency to consolidate and coordinate federal drug control
activities. The creation of the DEA was in response to the growing
availability of drugs in most areas in the United States, the perceived lack or
coordination between the United States Customs Service and the Bureau of
Narcotics and Dangerous Drugs (which was replaced by the DEA), and the
need for better intelligence collection on drug trafficking organizations.

      According to the DEA, its mission is to enforce the controlled
substances laws and regulations of the United States; to bring to the
criminal and civil justice system of the United States, or any other
competent jurisdiction, those organizations and principal members of
organizations involved in the growing, manufacturing, or distribution of
controlled substances appearing in or destined for illicit traffic in the United
States; and to recommend and support non-enforcement programs aimed at


                                     - 19 -
reducing the availability of illicit controlled substances on the domestic and
international markets.

       In FY 2001, the DEA reported total obligations for its drug demand
reduction programs of $3 million to the ONDCP, which equates to only
0.2 percent of the DEA’s $1.4 billion total agency obligations. See Finding IV
for additional information related to the DEA’s drug demand reduction
activities and funding.

     The stated mission of the drug demand reduction program reported by
the DEA is:

   •   Demand Reduction Section is a unit within the DEA’s Office of
       Congressional and Public Affairs established to implement DEA’s drug
       demand reduction efforts, including: (1) establishing an aggressive
       program of public awareness education for opinion and community
       leaders; (2) reaching millions of school-aged children with appropriate
       and specific drug education and prevention programs; (3) providing
       support to re-energize the national "parents movement"; and
       (4) providing businesses and other employees with the tools necessary
       for establishing and maintaining drug-free workplaces.

      In the DEA Strategic Plan, the DEA Demand Reduction Section falls
under the strategic goal “to reduce drug-related crime in American
communities by utilizing expertise as required by local situations.” The
specific DEA strategic objective related to the DEA Demand Reduction
Section is “to educate local audiences with aggressive drug demand
reduction programs.”

       Based on our analysis, the strategic goal and objective for the DEA
Demand Reduction Section are consistent with both the DOJ and ONDCP
drug demand reduction strategic goals and objectives. Specifically, the DEA
Demand Reduction Section falls under the DOJ strategic objective No. 3.3,
“to break the cycle of drugs and violence by reducing the demand for and
use and trafficking of illegal drugs.” Additionally, the DEA Demand
Reduction Section falls under the ONDCP strategic objectives No. 1.1, “to
educate parents and other care givers, teachers, coaches, clergy, health
professionals, and business and community leaders to help youth reject
illegal drugs and underage alcohol and tobacco use”; No. 1.4, “to provide
students in grades K-12 with alcohol, tobacco, and drug prevention
programs and policies that are research based”; and No. 3.3, “to promote
national adoption of drug-free workplace programs that emphasize a
comprehensive program that includes: drug testing, education, prevention,

                                     - 20 -
and intervention.” Further, we determined that the DEA Demand Reduction
Section, with total reported FY 2001 obligations of $3 million, is directly
related to drug demand reduction. The primary focus of the DEA Demand
Reduction Section includes drug abuse education, prevention, and drug-free
workplace efforts, which directly address drug demand reduction as defined
by the ONDCP.

      We also identified an additional drug demand reduction program
administered by the DEA. The Integrated Drug Enforcement Assistance
(IDEA) Program was not initiated until December 2001; as a result, it was
not included in the FY 2001 DEA Management Assertion Statement. The
stated mission of the program is:

  •   IDEA Program is designed to combine the DEA’s enforcement efforts
      with existing community coalitions to have a long-lasting impact to
      reduce demand through drug prevention and treatment programs. To
      accomplish this integrated approach the DEA states that it plans to
      identify drug trafficking targets and work with state and local law
      enforcement to develop and execute enforcement operations against
      the groups identified. The DEA also plans to work with community
      groups to identify local drug abuse problems, barriers to dealing with
      the problems, and solutions for these problems. At the time of our
      audit, the IDEA Program was in the pilot stage; therefore, we could
      not determine if the planned program approach was implemented.

      The IDEA Program was not included in the DEA’s OMB budget
submission or Strategic Plan; therefore, strategic goals and objectives have
not been identified for the program. Based on the planned mission for the
IDEA Program, we determined that the drug demand reduction portion of
the program falls under ONDCP strategic objective No. 1.6, “to encourage
and assist the development of community coalitions and programs in
preventing drug abuse and underage alcohol and tobacco use.” However,
the IDEA Program is still in the development stage; therefore, we could not
determine if the planned program approach related to drug demand
reduction was implemented or whether the IDEA Program is directly related
to drug demand reduction. Based on the planned activities, it appears that
IDEA could be a dual-purpose program and could be scored as both
enforcement and drug demand reduction.




                                   - 21 -
Office of Justice Programs

      The OJP was established in 1984 to provide federal leadership in
developing the nation's capacity to prevent and control crime, improve the
criminal and juvenile justice systems, increase knowledge about crime and
related issues, and assist crime victims. The OJP consists of five bureaus,
six program offices, and seven agency-wide support offices.15 Within OJP,
drug demand reduction programs were included in the: (1) Bureau of
Justice Assistance, (2) Bureau of Justice Statistics, (3) Corrections Program
Office, (4) Executive Office for Weed and Seed, (5) Office of Juvenile Justice
Delinquency Programs, and (6) Drug Courts Program Office. In FY 2001,
OJP reported total obligations for 11 drug demand reduction programs of
$231 million to the ONDCP, about 6 percent of OJP’s $4.2 billion total agency
obligations.

      The stated missions of the 11 drug demand reduction programs
reported by OJP are:

     •   Byrne Discretionary Grant Program provides grant funding to
         assist states and local units of government to control and prevent
         drugs and violent crime, and to improve the functioning of all
         components in the criminal justice system.

     •   Byrne Formula Grant Program provides grant funding to assist
         states and units of local government in carrying out programs that
         offer a high probability of improving the functioning of the criminal
         justice system, with a special emphasis on drug and violent crime
         control strategies.

     •   Indian Alcohol and Substance Abuse Demonstration Program
         provides grant funding designed to reduce violent and non-violent
         crimes associated with the distribution and use of alcohol and
         controlled substances in tribal communities.

     •   Criminal Records Upgrade Program provides grant funding to
         assist states in improving the automation, accuracy, and completeness
         of criminal records including records of protective orders involving
         domestic violence and stalking; developing complete and accurate sex
         offender registries; and facilitating the interstate exchange of such
         records through national systems.

15
   See Appendix IV for a complete listing and the purpose of each OJP bureau, program
office, and agency-wide support office.

                                         - 22 -
•   Residential Substance Abuse Treatment Program provides grant
    funding to enhance the capability of states and units of local
    government to provide residential substance abuse treatment for
    incarcerated inmates.

•   Correctional Grant Programs provides grant funding for the
    construction of correctional facilities for the incarceration of offenders.

•   Weed and Seed Program provides grant funding to communities to
    help develop and implement comprehensive strategies to “weed out”
    violent crime, drug and gun trafficking, and gang activity and “seed”
    the neighborhood with programs that achieve and maintain crime
    prevention and economic revitalization.

•   Safe Start Program provides grant funding to improve the
    accessibility, delivery, and quality of services for young children
    (primarily from birth to age 6) and their families who have been
    exposed to violence or are at risk of exposure.

•   Juvenile Justice Discretionary Grant Program provides grant
    funding in accordance with Part C of the Juvenile Justice and
    Delinquency Prevention Act of 1974, as amended. Part C provides the
    Office of Juvenile Justice and Delinquency Prevention with the
    authority to support research, evaluation, information dissemination,
    training and technical assistance, statistics, program development and
    demonstration, and the replication of promising delinquency
    prevention programs.

•   Title V - Tribal Youth Programs provides Title V grant funding,
    technical assistance, and training for local delinquency prevention
    programs. In addition to Tribal Youth Programs, Title V includes grant
    funding for the following: (1) School Safety Initiative, (2) Safe
    Schools Task Forces, (3) programs to combat underage drinking, and
    (4) community prevention grants.

•   Drug Prevention Demonstration Program provides grants
    designed to develop, demonstrate and test programs to increase
    perception among children and youth that drug use is risky, harmful
    and unattractive; and establish a rational framework for preventing
    and responding to adolescent problem behavior that is substantiated
    by years of research focused on risk-focused prevention.



                                   - 23 -
     During our review of OJP’s Management Assertion Statement, we
noted that the Drug Courts Program, with $50 million in total reported
FY 2001 obligations, was reported as state and local assistance to the
ONDCP. The stated mission of the program is:

     •   Drug Courts Program provides grant funding and technical
         assistance for states, state courts, units of local government, local
         courts, and Indian Tribal governments to develop and implement
         treatment drug courts that employ the coercive power of courts to
         subject non-violent offenders to an integrated mix of treatment,
         substance abuse testing, incentives, and sanctions to break the cycle
         of substance abuse and crime.

       Based on our analysis of the mission, strategic goal, and objective of
the Drug Courts Program, we determined that the program was incorrectly
classified by OJP and should be classified as drug demand reduction because
the program directly relates to drug treatment as an alternative to
incarceration. The OJP agreed with our assessment of the Drug Courts
Program and had plans to reclassify the Drug Courts Program in its next
ONDCP budget submission. As a result, our audit included a total of 12 OJP
programs with reported FY 2001 obligations of $281 million.

      In addition to the above programs, OJP administers the ONDCP’s
Drug-Free Communities Grant Program.16 Under an agreement with the
ONDCP, OJP provides all administrative functions related to the grants;
however, these grants are approved at the discretion of the ONDCP. The
grants provide funding to increase citizen participation and strengthen
community anti-drug coalition efforts to reduce substance abuse among
youth in communities throughout the United States and, over time, to
reduce substance abuse among adults.

       The OJP has not developed its own strategic plan. Instead OJP stated
in its FY 2003 OMB budget submission that:

     •   The Byrne Discretionary Grant Program, Byrne Formula Grant
         Program, Indian Alcohol and Substance Abuse Demonstration
         Program, Criminal Records Upgrade Program, and Correctional Grant
         Programs fall under the DOJ strategic objective No. 3.1, “to improve


16
  The funding for the ONDCP Drug-Free Communities Grant Program is not included as a
part OJP’s drug demand reduction obligations reported to the ONDCP, since the grant
funding is under the direct control of the ONDCP.

                                        - 24 -
       the crime fighting and criminal justice administration capabilities of
       state, tribal, and local governments.”

   •   The Drug Prevention Demonstration Program, Title V - Tribal Youth
       Programs, and Safe Start Program fall under the DOJ strategic
       objective No. 3.2, “to reduce youth crime and victimization through
       assistance that emphasizes both enforcement and prevention.”

   •   The Residential Substance Abuse Treatment Program and Drug Courts
       Program fall under the DOJ strategic objective No. 3.3, “to break the
       cycle of drugs and violence by reducing the demand for and use and
       trafficking of illegal drugs.”

   •   The Weed and Seed Program falls under the DOJ strategic objective
       No. 3.5, “to support innovative cooperative and community-based
       programs aimed at reducing crime and violence and promote the
       resolution of racial tension.”

      The OJP FY 2003 OMB budget submission did not identify any strategic
goals or objectives for the Juvenile Justice Discretionary Grant Program as a
whole.

      Based on our analysis of the strategic goals and objectives for the OJP
programs shown on the previous page, we determined that the Indian
Alcohol and Substance Abuse Demonstration Program, Residential Substance
Abuse Treatment Program, and Drug Courts Program support ONDCP
strategic goal and objective No. 2.4, “to break the cycle of drug abuse and
crime.” Additionally, we determined that the Drug Prevention
Demonstration Program supports the ONDCP strategic goal and objective
No. 1.4, “to provide students in grades K-12 with alcohol, tobacco, and drug
prevention programs and policies that are researched based.” Further, we
determined that the four OJP programs, with total reported FY 2001
obligations of $122 million, are directly related to drug demand reduction.
The primary focus of the programs includes drug abuse education,
prevention, treatment, rehabilitation, and research, which directly address
drug demand reduction as defined by the ONDCP.

       However, based on our analysis we determined that the remaining
eight programs are not directly related to any of the drug demand reduction
goals and objectives established in the ONDCP Strategic Plan. Further, for
the reasons stated below, we determined that the following programs, with
total reported FY 2001 obligations of $159 million, are not directly related to
drug demand reduction.

                                      - 25 -
  •   The primary focus of the Byrne Discretionary Grant Program includes
      crime and drug enforcement, as well as criminal justice system
      improvements, which does not specifically address any of the ONDCP
      drug demand reduction efforts defined previously.

  •   The primary focus of the Byrne Formula Grant Program is to improve
      state and local criminal justice systems, which does not specifically
      address any of the ONDCP drug demand reduction efforts defined
      previously.

  •   The primary focus of the Criminal Records Upgrade Program is to
      assist states in improving criminal records systems, which does not
      specifically address any of the ONDCP drug demand reduction efforts
      defined previously.

  •   The primary focus of the Correctional Grant Programs is to provide
      funding for the construction of correctional facilities, which does not
      specifically address any of the ONDCP drug demand reduction efforts
      defined previously.

  •   The primary focus of the Weed and Seed Program is to enforce and
      prevent violent crime, which does not specifically address any of the
      ONDCP drug demand reduction efforts defined previously.

  •   The primary focus of the Safe Start Program is to provide services to
      children exposed to violence, which does not specifically address any
      of the ONDCP drug demand reduction efforts defined previously.

  •   The primary focus of the Juvenile Justice Discretionary Grant Program
      is juvenile delinquency prevention, enforcement, and improving the
      juvenile justice system, which does not specifically address any of the
      ONDCP drug demand reduction efforts defined previously.

  •   The primary focus of the Title V - Tribal Youth Programs is juvenile
      delinquency prevention, which does not specifically address any of the
      ONDCP drug demand reduction efforts defined previously.

       The OJP agreed with our conclusion that the above programs were not
directly related to drug demand reduction. In fact, with the exception of the
Weed and Seed Program, these programs were eliminated from OJP’s
FY 2003 budget submission to the ONDCP. The Weed and Seed Program
was included in the budget submission as directed by the ONDCP because


                                    - 26 -
Weed and Seed is categorized as drug control funding in the President’s
Budget.


Conclusion - Analysis of Program Missions, Strategic Goals and
Objectives

       For each of the 19 DOJ programs reported as drug demand reduction
in the DOJ Management Assertion Statements submitted to the ONDCP, with
total reported FY 2001 obligations of $336 million, we analyzed the
program’s mission, strategic goals, and objectives. Based on our analysis
the programs reported to the ONDCP do not, in our judgment, accurately
reflect the DOJ’s drug demand reduction efforts. Of the 19 DOJ programs
included in the $336 million, we identified 10 programs with total reported
obligations of $223 million that were not directly related to drug demand
reduction, as shown in the following table.

               LISTING OF DOJ PROGRAMS NOT DIRECTLY
                RELATED TO DRUG DEMAND REDUCTION

            DOJ Components & Programs                    FY 2001 Obligations
   Community Oriented Policing Services                      $64 million
      •   COPS in Schools Program
      •   Safe Schools Initiative
   Office of Justice Programs                               $159 million
      •   Byrne Discretionary Grant Program
      •   Byrne Formula Grant Program
      •   Criminal Records Upgrade Program
      •   Correctional Grant Programs
      •   Weed and Seed Program
      •   Safe Start Program
      •   Juvenile Justice Discretionary Grant Program
      •   Title V - Tribal Youth Programs
                 Total DOJ Obligations                      $223 million


       Additionally, the Drug Courts Program, with reported obligations of
$50 million in FY 2001, was reported as state and local assistance to the
ONDCP. In our judgment, the Drug Courts Program was incorrectly
classified by OJP and should have been included as drug demand reduction.
As a result, the DOJ efforts directly related to drug demand reduction


                                            - 27 -
consisted of 10 DOJ programs with total reported FY 2001 obligations of
$163 million, as shown in the following table.

                 LISTING OF DOJ PROGRAMS DIRECTLY
                RELATED TO DRUG DEMAND REDUCTION

            DOJ Components & Programs               FY 2001 Obligations
  Federal Bureau of Prisons                              $38 million
     • Drug Abuse Education Program
     • Residential Drug Abuse Treatment Program
     • Non-Residential Drug Abuse Treatment
         Program
     • Transitional Drug Abuse Treatment Program
  Drug Enforcement Administration                         $3 million
     • DEA Demand Reduction Section
     • IDEA Program
  Office of Justice Programs                            $122 million
     • Indian Alcohol and Substance Abuse
         Demonstration Program
     • Residential Substance Abuse Treatment
         Program
     • Drug Prevention Demonstration Program
     • Drug Courts Program
                 Total DOJ Obligations                  $163 million


     However, as described in the next section, our analysis of the
methodologies used to prepare drug-related financial information reported to
the ONDCP revealed that the estimates used by the COPS Office, DEA, and
OJP were not adequately supported.


Analysis of Financial Reporting Methodologies

      The drug-related financial information included in our report was
prepared by the DOJ components using the December 1999 ONDCP
Accounting Circular. This circular provides guidance for the methodology by
which each component should calculate its drug-related financial
information. Each component’s drug methodology should provide a
reasonable basis for consistent estimation, and financial information derived
through the application of the methodology should fairly quantify the
component’s involvement in the National Drug Control Program. The
components may use a variety of reasonable methods, including workload
data, grants data, statistical data, or professional judgment to estimate the
                                     - 28 -
drug-related portion of its programs. However, once initially established,
any material modification to a component’s drug methodology must be
submitted to the ONDCP for review and approval before it can be
implemented.

      We reviewed each component’s Management Assertion Statement in
order to determine the components’ methodologies for reporting
drug-related financial information and whether the basis for the
methodology used was adequately supported.


Federal Bureau of Prisons

       The BOP reported total FY 2001 obligations of $38.2 million for its drug
demand reduction programs. We obtained the BOP Management Assertion
Statement submitted to the ONDCP for FY 2001, the Attestation Report
prepared by the certified public accounting firm, and supporting
documentation. The BOP’s methodology for reporting drug demand
reduction financial information to the ONDCP is to report 100 percent of its
recorded drug treatment obligations, which consists of drug treatment staff
salaries and benefits, and operating costs, including supplies, printing costs,
and other miscellaneous expenses. The BOP’s drug treatment funding is a
separate budget item and program obligations are recorded in its financial
system. In our judgment, the methodology used by the BOP for reporting
drug demand reduction financial information to the ONDCP is reasonable and
complies with the December 1999 ONDCP Accounting Circular.


Office of Community Oriented Policing Services

       The COPS Office reported total FY 2001 obligations of $64.2 million for
its drug demand reduction programs. We obtained the COPS Office
Management Assertion Statement submitted to the ONDCP for FY 2001, the
Attestation Report prepared by the certified public accounting firm, and
supporting documentation. The COPS Office’s methodology for reporting
drug demand reduction financial information to the ONDCP is to apply an
estimate of one-third to the recorded obligations for the Safe Schools
Initiative and the COPS in Schools Program. The COPS Office could not
provide us with any information to support the rationale used in developing
the one-third estimate or the relationship between the estimate and its drug
demand reduction activities. In our judgment, the COPS Office does not
appear to have a reasonable basis supporting its methodology for reporting
drug demand reduction financial information to the ONDCP. As a result, the

                                    - 29 -
financial information reported to the ONDCP might not accurately reflect the
COPS Office’s drug demand reduction efforts.


Drug Enforcement Administration

       The DEA reported total FY 2001 obligations of $3 million for its drug
demand reduction programs. We obtained the DEA’s Management Assertion
Statement submitted to the ONDCP for FY 2001, the Attestation Report
prepared by the certified public accounting firm, and supporting
documentation. The DEA’s methodology for reporting drug demand
reduction financial information to the ONDCP applies an estimate of
3 percent to its recorded obligations for the Management and Administration
decision unit. To determine the percentage of Management and
Administration obligations related to drug demand reduction, the DEA
calculated the average salaries and benefits for 21 Special Agents
designated as DRCs, added this amount to the drug demand reduction
operating budget and divided the total by the total obligations for
Management and Administration. Using this formula, the DEA determined
that about 3 percent of its obligations for Management and Administration
are related to the DEA's drug demand reduction programs. In our judgment,
the methodology used by the DEA does not accurately reflect its drug
demand reduction financial obligations. The DEA’s 3 percent estimate of
Management and Administration obligations is understated because it does
not include 8 Demand Reduction Section headquarters staff and 6 of its 27
DRCs. As a result, the financial information reported to the ONDCP does not
accurately reflect the DEA’s drug demand reduction efforts. We also
identified concerns related to the DEA Demand Reduction Section FY 2001
operating expenditures, which are discussed in detail in Finding IV of this
report.


Office of Justice Programs

      The OJP reported total FY 2001 obligations of $231 million for 11 drug
demand reduction programs. We obtained OJP’s Management Assertion
Statement submitted to the ONDCP for FY 2001, the Attestation Report
prepared by the certified public accounting firm, and supporting
documentation. The OJP’s methodology for reporting drug-related financial
information varies depending on whether the program is entirely or partly
drug-related. For those programs that are entirely drug demand reduction
related, OJP reports 100 percent of the recorded program obligations. For
those programs that are partly drug demand reduction related, OJP applies

                                   - 30 -
an estimated percentage to the reported program obligations. The
percentages established by OJP for its drug demand reduction programs are
shown in the table on the following page.

                   OFFICE OF JUSTICE PROGRAMS
                 PERCENTAGES USED FOR REPORTING
          DRUG DEMAND REDUCTION FINANCIAL INFORMATION
                                                      Drug
          OJP Bureau/Office & Programs               Related   Prevention Treatment
   Bureau of Justice Assistance
      •   Byrne Discretionary Grant Program            90%        10%        10%
      •   Byrne Formula Grant Program                  80%        10%        10%
      •   Indian Alcohol and Substance Abuse
          Demonstration Program                        25%       100%        ---
   Bureau of Justice Statistics
      •   Criminal Records Upgrade Program           Unknown      20%        ---
   Corrections Program Office
      •   Residential Substance Abuse Treatment
          Program                                     100%         ---      100%
      •   Correctional Grant Programs                  10%         ---      100%
   Executive Office for Weed & Seed
      •   Weed and Seed Program                        50%        10%        ---
   Office of Juvenile Justice Delinquency
   Programs
      •   Safe Start Program                           25%       100%        ---
      •   Juvenile Justice Discretionary Grant
          Program                                    Unknown     100%        ---
      •   Title V – Tribal Youth Programs              23%       100%        ---
      •   Drug Prevention Demonstration
          Program                                     100%       100%        ---
   Drug Courts Program Office
      •   Drug Courts Program                         100%        ---        ---


      The OJP officials stated that for the nine programs not entirely related
to drug demand reduction, the percentages in the above chart (highlighted
in blue) were developed “a number of years ago” and have not been revised
since they were originally developed. Further, OJP could not provide us with
any information to support the rationale used in developing the estimated
percentages or the relationship between the percentages and its drug
demand reduction activities. In our judgment, for the nine programs not
entirely related to drug demand reduction, OJP does not have a reasonable
basis supporting its methodology for reporting drug demand reduction

                                            - 31 -
financial information to the ONDCP. As a result, the financial information
reported to the ONDCP might not accurately reflect OJP’s drug demand
reduction efforts.


Revisions to the ONDCP Circulars

       Attachment A of the May 1999 ONDCP Budget Circular17 lists the
components for each federal agency that are required to provide drug
control financial information, including 14 components within the DOJ.
Subsequent to the start of our audit, the ONDCP issued four revised circulars
on May 30, 2002. The May 2002 ONDCP Budget Circular included a
significant restructuring of the ONDCP’s National Drug Control Budget. To
the maximum extent possible, resources identified in the ONDCP Drug
Budget are now required to be tied directly to identifiable line items in the
components’ budgets. Unless otherwise noted only those programs (budget
decision units) consisting of 100 percent drug control funding will be
included in the National Drug Control Budget. As a result, based on
Attachment A of the May 2002 Budget Circular only five DOJ agencies will be
required to submit drug control financial information to the ONDCP. Further,
Attachment B of the May 2002 Budget Circular lists those programs for
which each component is required to report as drug-related funding. Our
review of Attachment B disclosed that 10 DOJ programs would no longer be
reported to the ONDCP as drug demand reduction, as shown in the table on
the following page.




17
  The ONDCP Circular titled, Budget Instructions and Certification Procedures, dated May 5,
1999, (May 1999 ONDCP Budget Circular).

                                          - 32 -
                   DEPARTMENT OF JUSTICE PROGRAMS
                 NOT REQUIRED TO REPORT TO THE ONDCP
                        EFFECTIVE MAY 30, 2002

                            DOJ Components & Programs
          Community Oriented Policing Services
             •   COPS in Schools Program
             •   Safe Schools Initiative
          Office of Justice Programs
             •   Byrne Discretionary Grant Program
             •   Byrne Formula Grant Program
             •   Indian Alcohol and Substance Abuse Demonstration Program
             •   Criminal Records Upgrade Program
             •   Correctional Grant Programs
             •   Safe Start Program
             •   Juvenile Justice Discretionary Grant Program
             •   Title V - Tribal Youth Programs


       As previously stated, we identified 10 programs that, in our judgment,
were not directly related to drug demand reduction. Because of the
revisions in May 2002 ONDCP Budget Circular, this audit report does not
contain any specific recommendations related to those programs that are no
longer required to be reported to the ONDCP as drug demand reduction.
The Attachment B of the May 2002 ONDCP Budget Circular still requires that
all Weed and Seed Program funding be reported; therefore, this report
includes a recommendation related to the methodology used to report
drug-related financial information for the Weed and Seed Program.


Conclusion

      Although the DOJ FY 2001 drug-related financial information reported
to the ONDCP was prepared in accordance with the December 1999 ONDCP
Accounting Circular, in our judgment, the information reported to the ONDCP
does not accurately reflect the DOJ’s drug demand reduction efforts. Of the
19 DOJ programs included in the reported $336 million FY 2001 drug
demand reduction obligations, we identified 10 programs with reported
obligations of $223 million that were not directly related to drug demand
reduction. Additionally, in our judgment, the Drug Courts Program, with
reported obligations of $50 million in FY 2001, was incorrectly classified by
OJP as state and local assistance and should have been included as drug
demand reduction. As a result, the DOJ efforts directly related to drug
                                           - 33 -
demand reduction actually consisted of 10 DOJ programs with total reported
FY 2001 obligations of $163 million.

      Additionally, our analysis of the methodologies used to prepare
drug-related financial information reported to the ONDCP revealed that
obligations reported by the COPS Office, DEA, and OJP were not adequately
supported. The COPS Office could not provide any documentation to support
the percentages of obligations reported as drug demand reduction. The
DEA’s estimate of Management and Administration obligations does not
include all Demand Reduction Section staff. The OJP could not provide any
documentation to support the percentage of obligations reported as drug
demand reduction for nine of its programs. As a result, the financial
information reported to the ONDCP might not accurately reflect the DOJ’s
drug demand reduction efforts.

      Based on the revisions included in the May 2002 ONDCP Budget
Circular, the following recommendations only include those programs that
are still required to be reported to the ONDCP as drug demand reduction.


Recommendations

     We recommend that the Administrator, DEA, in conjunction
with the ONDCP:

1.   Ensure that the estimates used to report the Demand Reduction
     Section obligations to the ONDCP are reasonable and supported.


     We recommend that the Assistant Attorney General, OJP, in
conjunction with the ONDCP:

2.   Ensure that the Drug Courts Program is reported as drug demand
     reduction in future ONDCP submissions.

3.   Ensure that the estimates used to report the Weed and Seed Program
     obligations to the ONDCP are reasonable and supported by adequate
     documentation.




                                  - 34 -
II.      EFFECTIVENESS OF DRUG DEMAND REDUCTION EFFORTS

         We found that none of the current performance indicators used by the
         BOP, COPS Office, or OJP are adequate to measure program
         effectiveness. Additionally, the DEA has not established any
         performance indicators for its drug demand reduction programs. We
         also identified weaknesses related to the data used to report on the
         performance indicators for the BOP, COPS Office and OJP.


Overall Effectiveness of Federal Drug Control Efforts

      Over the past 20 years, the federal drug control budget, which
includes those resources dedicated to both supply reduction (enforcement)
and drug demand reduction, has increased by over $16 billion. The current
drug control budget is more than 10 times the drug control budget in 1981,
as shown in the following chart.

                        FEDERAL DRUG CONTROL BUDGET
                              FY 1981 – FY 2000
                                        ($ billions)


        20
                                                                             17.9 17.7
        18
        16                                                        14.6 15.1 16
        14                                                      13.3
                                                        12.3
                                                 11 11.9    12.1
        12
        10                                   9.8

         8                               6.7
                                 4.8 4.7
         6
                     2.4 2.8 2.9
         4
               1.7 2
         2 1.5
         0
          81


                 83




                                87


                                       89


                                               91


                                                       93


                                                             95


                                                                    97


                                                                            99
                        85




      Source: ONDCP Drug Policy, Strategy and Implementation.




                                            - 35 -
      However, despite significant increases in federal drug control budget,
based on the ONDCP’s FY 2001 Performance Report 18 there appears to have
been little progress towards achieving the National Drug Control Strategy
goals and strategic objectives developed by the ONDCP. Specifically, the
ONDCP’s FY 2001 Performance Report states:

     •   Since 1996 (base year), there has been no progress overall toward
         achieving goal one, Reducing Youth Drug Use.

     •   Overall progress toward achieving goal two, Reducing Drug-Related
         Crime and Violence, is on track for the reduction in drug-related crime;
         however, the targets for reducing the quantity of illicit drugs available
         in the United States has not been met for the second consecutive year.

     •   There has been no progress overall toward achieving goal three,
         Reducing the Health and Social Costs of Illegal Drug Use, for the
         second consecutive year.

     •   Overall progress toward achieving goal four, Stopping Drug Shipments
         En-Route to the Unites States Border, is on track for reducing the rate
         in which cocaine successfully enters the United States, but is unknown
         for reducing the rate of other drugs (i.e., marijuana,
         methamphetamine, heroin, and MDMA).

     •   There has been minimal progress overall toward achieving goal five,
         Breaking the Sources of Supply, for cocaine and unknown for other
         drugs.

      The ONDCP FY 2001 Performance Report further states that unless
progress is escalated, the drug control community is not likely to achieve the
national goals and strategic objectives by FY 2007.


Overall Effectiveness of Federal Drug Demand Reduction Efforts

      As stated previously, of the $18.1 billion budgeted for federal drug
control efforts in FY 2001, approximately $5.9 billion was dedicated to drug
demand reduction efforts. Despite the fact that significant resources have
been allocated to drug demand reduction activities, the demand for drugs,
as percentage of the population, has not significantly decreased since 1989.

18
  The ONDCP, Performance Measures of Effectiveness, 2001 Annual Report (ONDCP FY
2001 Performance Report).

                                       - 36 -
As shown in the chart below, the percentage of the population reporting past
month drug use remained relatively the same since 1990.

                   PERCENTAGE OF THE POPULATION
                  REPORTING PAST MONTH DRUG USE

     15



                                                      A n y Illicit D ru g
     10                                               M ariju an a
                                                      C o cain e



      5




      0
           85   88    90    91    92    93    94    95     96     97     98

  Source: The HHS, SAMHSA, 1998 Household Survey on Drug Abuse.


      Additionally, according to the HHS SAMHSA 2001 Household Survey on
Drug Abuse, the percentage of the population reporting past month drug use
increased from 6.3 percent in 1999 to 7.1 percent in 2001.

      Further, drug use among youths between the ages of 12 to 17 has
increased since 1992, and drug use among young adults between the ages
of 18 to 25 has remained relatively constant, as shown in the chart on the
following page.




                                    - 37 -
                          PERCENTAGE OF YOUTHS
                      REPORTING PAST MONTH DRUG USE
                                        (Any Drug)

         30

         25

         20

         15

         10

         5

         0
              1985 1988 1990 1991 1992 1993 1994 1995 1996 1997 1998

                                       12 to 17      18 to 25
     Source: The HHS, SAMHSA, 1998 Household Survey on Drug Abuse.


      Additionally, according to the HHS SAMHSA 2001 Household Survey on
Drug Abuse, past month drug use among youths aged 12 to 17 increased
from 9.7 percent in 1999 to 10.8 percent in 2001. Further, past month drug
use among young adults aged 18 to 25 increased from 16.4 percent in 1999
to 18.8 percent in 2001.

      In fact, the ONDCP FY 2001 Performance Report indicates that there
has been no progress towards reducing overall drug use nation-wide, and as
a result the drug control community is not likely to reach its drug demand
reduction goals for 2002 through 2007. Specifically,

     •    youth use of marijuana, cocaine, and heroin has remained relatively
          constant since 1996 (the base year);

     •    the average age of first use of marijuana, cocaine, or heroin has
          remained essentially the same since 1996;19



19
  The information related to the age of first use is based on 1998 data, since the data from
1999 was not available at the time the ONDCP report was issued.

                                           - 38 -
      •   the percentage of youths who perceive risk or disapprove of regular
          use marijuana, cocaine, or heroin has remained unchanged since the
          1998 baseline;

      •   past month use of any illicit drug (age 12 and older) remained
          relatively constant since 1996; and

      •   current drug use among full-time workers increased slightly, while use
          among part-time workers remained constant since 1996.

      Further, the demand for “club drugs,” such as Ecstasy, that are
currently not included in the ONDCP FY 2001 Performance Report, have
increased by as much as 71 percent.20


Effectiveness of DOJ Performance Indicators

      As stated above, federal drug demand reduction efforts during the past
12 years have not been effective in reducing the demand for drugs.
However, these statistics do not necessarily reflect the impact that individual
programs may have in reducing the demand for drugs. In order to
determine the effectiveness of the DOJ drug demand reduction efforts, we
analyzed the performance indicators established by the components for each
program to determine if they adequately measure program effectiveness and
whether the data reported for the performance indicators was adequately
supported.

      The Government Performance and Results Act (GRPA) of 1993
(P.L. 103-62), requires agencies to develop strategic plans that identify their
long range strategic goals and objectives; annual plans that set forth
corresponding annual goals and indicators of performance; and annual
reports that describe the actual levels of performance achieved compared to
the annual goal.

      A key purpose of the GPRA is to improve federal program effectiveness
by focusing on results and help federal managers improve service delivery
by providing them with information about program results. Therefore, in
addition to measuring the number of tasks or activities of a program (output
measures), performance indicators should focus on the results and outcomes
of program activities (outcome measures).


20
     The Partnership for a Drug Free America, National Survey, February 2002.

                                            - 39 -
      We reviewed the performance indicators to determine whether they
were: (1) supported with adequate data; (2) consistent with the program’s
strategic goals, objectives and mission; and (3) output based, measuring the
number of tasks or activities of a program or outcome based, measuring
results and outcomes of program activities.


Federal Bureau of Prisons

      The BOP developed performance indicators for its drug demand
reduction programs in response to the GPRA reporting requirements. From
the BOP’s FY 2003 OMB budget submission, we identified the established
performance indicators and reported results for its drug demand reduction
programs, as shown below.

           PERFORMANCE             FY 2000     FY 2001     FY 2001     FY 2002
             INDICATOR              Actual       Plan       Actual       Plan
   Drug Abuse Education
   Program
     Number of counseling hours     540,000     545,000     545,000     720,000
     Number of participants          15,649      16,200      17,216      18,000
   Residential Drug Abuse
   Treatment Program
     Number of counseling hours    6,270,000   7,000,000   7,720,500   8,000,000
     Number of participants           12,541      14,000      15,441      16,000
     Number of programs                   44          47          50          55
     Percentage of eligible
     inmates receiving treatment      100%        100%        100%        100%
   Non-Residential Drug Abuse
   Treatment Program
     Number of counseling hours      50,203      56,000      67,914      69,000
     Number of participants           7,931       8,000      10,827      11,500
   Transitional Drug Abuse
   Treatment Program
     Number of participants           8,450       9,023      11,319      13,000


       The BOP’s performance indicators listed above are consistent with the
BOP’s drug treatment programs strategic goals, objectives, and mission,
identified in Finding I with respect to program outputs. However, the
current performance indicators do not adequately measure program
effectiveness. The performance indicators established are output based,
measuring the number of participants and drug counseling hours, rather
than measuring the results and effectiveness of the drug treatment
programs.

                                      - 40 -
       In our judgment, to adequately measure the effectiveness of its
programs, the BOP needs to establish measurable outcome based
performance indicators. In developing outcome performance indicators, the
BOP should consider available information that directly relates to the
program objectives and program benefits. For example, in the DOJ FY 2001
Performance Report,21 the BOP indicated that its drug treatment programs
are effective in reducing recidivism and substance abuse. The report also
states that offenders who complete the drug treatment program are less
likely to be rearrested or test positive for drug use than those who do not
receive treatment.

      Program evaluations are an additional example of available information
that should be considered in developing outcome performance indicators.
For instance, the BOP has conducted an evaluation of its Residential Drug
Abuse Treatment Program, designed to monitor inmates up to 3 years
following release from BOP custody. Based on the results of this evaluation,
BOP issued the following reports:

     •   TRIAD Drug Treatment Evaluation Project, Six-Month Interim
         Report, dated January 31, 1998. This interim report is based on
         inmates who had been released from BOP custody into the
         community for 6 months. The report revealed that inmates who
         completed the Residential Drug Abuse Treatment Program and
         had been released to the community for a minimum of 6 months
         were 73 percent less likely to be re-arrested and 44 percent less
         likely to use drugs, within the first 6 months after being
         released, than those inmates who had not received treatment.

     •   TRIAD Drug Treatment Evaluation Project, Final Report of
         Three-Year Outcomes, dated September 2000. This report is
         based on inmates who had been released from BOP custody into
         the community for 3 years. The report revealed that male
         inmates who completed the Residential Drug Abuse Treatment
         Program and had been released to the community for a
         minimum of 3 years were 16 percent less likely to be re-arrested
         and use drugs, within the first 3 years after being released, than
         those inmates who had not received treatment. Further, female
         inmates who completed the Residential Drug Abuse Treatment
         Program and had been released to the community for a

21
   The DOJ FY 2001 Performance Report and FY 2002 Revised Final, FY 2003 Performance
Plan, (DOJ FY 2001 Performance Report)

                                        - 41 -
        minimum of 3 years were 18 percent less likely to be re-arrested
        and 17 percent less likely to use drugs, within the first 3 years
        after being released, than those inmates who had not received
        treatment.


Office of Community Oriented Policing Services

      The COPS Office developed performance indicators for its Hiring
Programs, including the COPS in Schools Program, in response to the GPRA
reporting requirements.22 Performance indicators have not been established
for the Safe Schools Initiative. The COPS Office officials stated that the Safe
Schools Initiative funding is earmarked and appropriated by Congress on a
year-to-year basis. Therefore, the program was not included in the COPS
Office budget request where the component would normally report on any
performance indicators, if applicable.

      From the COPS Office FY 2003 OMB budget submission, we identified
the performance indicators and reported results for its COPS in Schools
Program, as shown in the following table.

               PERFORMANCE             FY 2000     FY 2001      FY 2001      FY 2002
                 INDICATOR              Actual       Plan        Actual        Plan
     COPS Hiring Programs23
       Number of grants awarded          1,462        1,034        1,002        1,294
       Number of police agencies
       funded                           12,250      13,317        12,552       12,775
       Number of additional police
       officers funded                   7,414        6,902        6,543        3,602
       Cumulative number of police
       officers funded                 109,212     116,299      114,124      117,726
       Percentage of grantees in
       compliance with programmatic
       reporting requirements
       (progress reports) for the
       current year                        98%         98%       99.56%          98%



22
  The performance indicators reported in the COPS Office FY 2003 budget submission to the
OMB combine all of the COPS Office Hiring programs, including the COPS Office in Schools
program. As a result, the numbers reported in the performance indicator table are the
combined numbers for all COPS Office Hiring programs.
23
  As stated previously, the numbers reported in the performance indicator table are the
combined numbers for all COPS Office Hiring programs including the COPS in Schools
Program.

                                          - 42 -
      As stated in Finding I, our audit revealed that the strategic goals,
objectives, and mission of the COPS in Schools Program were not directly
related to drug demand reduction. In addition, the performance indicators
used by the COPS Office do not adequately measure program effectiveness.
In our judgment, the performance indicators were all output based,
measuring the number of grants awarded, number of police officers funded
and the percentage of grantee progress reports submitted, rather than
measuring the results and effectiveness of the program.

       In order to adequately measure the effectiveness of its programs, in
addition to the output performance indicators currently in use to measure
program activities, the COPS Office needs to establish measurable outcome
based performance indicators for all programs, regardless of whether they
are related to drug demand reduction. In developing outcome performance
indicators, the COPS Office should consider available information that
directly relates to the program objectives and program benefits. For
example, in the DOJ Performance Report, the COPS Office indicates that the
school resource officers hired under the grant program have played an
integral role in ensuring a safe environment for students by defusing
potentially dangerous situations.


Drug Enforcement Administration

       The DEA’s Strategic Plan for FY 2001 through FY 2006, includes a
strategic objective to educate local audiences with aggressive drug demand
reduction programs. Despite the fact that drug demand reduction is
included as a strategic objective in the DEA Strategic Plan, we determined
that the DEA has not established any performance indicators for its drug
demand reduction programs. DEA officials told us that performance
indicators had not been developed because the DEA Demand Reduction
Section is small in comparison to the rest of the DEA's funding. As stated
previously, the total reported FY 2001 obligations for the DEA Demand
Reduction Section consisted of about 0.2 percent of DEA’s FY 2001 total
agency obligations. Additionally, we determined that the program was not
listed as a “program activity” in the DEA’s FY 2003 budget submission for
the OMB.

      Nonetheless, we believe the DEA should develop performance
indicators for its drug demand reduction programs, since drug demand
reduction is one of the DEA’s strategic objectives. Additionally, the DEA has
announced plans to double the number of DRCs in its field office locations.


                                    - 43 -
       Although performance indicators have not been established for its drug
demand reduction programs, the DEA does maintain statistics on the DRC’s
activities. The statistics maintained are included in the following table.

                                                 FY 2000      FY 2001
                  DRC STATISTICS                  Actual       Actual
       DEA Demand Reduction Section
         Number of Attendees                     10,453,711   10,807,340
         Media Products Produced                      2,991          538
         Number of Videos Distributed                16,789        4,044
         Number of Publications Distributed       1,461,887      287,228
         Number of Work Hours Involved               28,688       26,143
         Cost to DEA                               $450,986     $443,432


       In our judgment, the statistics used by the DEA do not adequately
measure program effectiveness. The statistics are all output based,
measuring the number of people reached, videos and publications
distributed, rather than measuring the results and effectiveness of the
programs.

      In order to adequately measure the effectiveness of its programs, the
DEA needs to establish measurable outcome based performance indicators.
In developing outcome performance indicators, the DEA should consider
available information that directly relates to the program objectives and
program benefits. According to the DEA Drug Demand Reduction Program,
Report of Fiscal Activities, Fiscal Year 2000, the DEA’s strategies for
achieving its drug demand reduction goals and objectives rely primarily on
DRC presentations and interactions with community organizations. The DEA
currently counts the number of DRC presentations and contacts with
community organizations but does not have a system in place to measure
the impact of these activities. Since the DEA drug demand reduction
program has a limited operating budget, the DEA might consider requiring
that all DRCs distribute participant feedback surveys at its presentations and
use the information obtained to evaluate program effectiveness.


Office of Justice Programs

       The OJP developed performance indicators for all the programs
identified in Finding I, except for the Juvenile Justice Discretionary Grant
Program, in response to the GPRA reporting requirements. From OJP’s
FY 2003 OMB budget submission, we identified the performance indicators
and reported results of the 11 OJP programs, as shown in Appendix VII.

                                        - 44 -
      As stated in Finding I, our audit revealed that only four OJP programs
reported to the ONDCP were directly related to drug demand reduction.
Nonetheless, we noted that generally the performance indicators used by
OJP do not adequately measure program effectiveness. Although a few
outcome based performance indicators have been developed for the Weed
and Seed Program, OJP’s performance indicators were generally all output
based, measuring the number of programs funded, number of participants,
and number of sites, rather than measuring results and effectiveness of the
program.

      In order to adequately measure the effectiveness of its programs, in
addition to the output performance indicators currently in use to measure
program activities, OJP needs to establish measurable outcome based
performance indicators. In developing outcome performance indicators, OJP
should consider available information that directly relates to the program
objectives and program benefits. For example, in the DOJ Performance
Report, OJP indicates that offenders treated through its Residential
Substance Abuse Treatment Program are less likely to use drugs upon
release, which will enable them to become more employable and less of a
strain on community resources. The DOJ Performance Report further states
that programs, such as drug courts that combine criminal justice sanctions
with substance abuse treatment are effective in decreasing drug and alcohol
use and related crime.


Data Reliability

      For each performance indicator reported in the FY 2003 ONDCP budget
submissions, we identified the source of data used to report results and
determined whether the data reported was supported. Based on our
analysis we identified the following problems related to the data used to
report results on the performance indicators.

      In its FY 2003 OMB budget submission, the BOP identified its Sentry
system as the data source for all of its drug demand reduction performance
indicators. Our audit revealed that the BOP Sentry system contains
information on the number of participants in each of the four drug treatment
programs, tracks the number of BOP facilities with Residential Drug Abuse
Treatment Programs and calculates the percentage of eligible inmates
receiving residential drug treatment. However, the Sentry system does not
contain information related to the number of counseling hours provided for
each of the four drug treatment programs. We determined that BOP officials
estimate the number of drug counseling hours provided based on the

                                   - 45 -
number of program participants using the minimum required number of
counseling hours for each drug treatment program. In our judgment, the
BOP should, at a minimum, revise its performance indicator table in its
budget submission to disclose that the data source for the number of drug
counseling hours provided is based on estimates made by program officials
rather than data maintained in the Sentry system.

      In its FY 2003 OMB budget submission, the COPS Office identified its
COPS Management System (CMS) as the data source for all the performance
indicators for its hiring grants. We determined that the data reported could
not be verified. The COPS Office officials stated that the original CMS data
used to report on its performance indicators was not retained. Further, they
could not recreate the data reported since the CMS is a real-time system and
does not have the capability of generating reports as of a specific point-in-
time. However, the COPS Office recently implemented a protocol that
includes procedures to ensure that data is consistent and accurate, as well
as a means to reconstruct data for audits and congressional requests.

      We identified OJP’s data sources for its performance indicators, as
shown in Appendix VIII. We determined that OJP only verified the accuracy
of the data used for the four performance indicators that were included in
the DOJ Performance Report. 24 The OJP Office of Budget and Management
Services traced the data reported for the four performance indicators listed
below to the source documentation; however, OJP did not verify the
accuracy of the remaining 38 performance indicators included in its FY 2003
OMB budget submission.

     •   Residential Substance Abuse Treatment Program: Number of
         offenders treated for substance abuse (cumulative).

     •   Drug Courts Program: Number of new DCPO-funded drug courts.

     •   Weed and Seed Program: (1) Percent of participants who feel safe
         havens are working to reduce crime and (2) participants who feel that
         community policing is working to reduce crime (percent of responses
         from customer survey).




24
  The OJP attempted to verify the Byrne Formula Grant Program performance indicator for
the funding directed toward Byrne Formula supported multi-jurisdictional task force projects
as projected/allocated by states (includes drug task forces); however, the data source no
longer existed.

                                          - 46 -
Conclusion

       We determined that none of the current performance indicators used
by the BOP, COPS Office or OJP are adequate to measure program
effectiveness. Generally, the performance indicators used by the three DOJ
components are output based, measuring the number of tasks and activities,
rather than, outcome based, measuring the results and effectiveness of
program activities. Further, the DEA has not established any performance
indicators for its drug demand reduction programs, even though drug
demand reduction is one of the DEA’s strategic objectives.


Recommendations

     We recommend that the Director, BOP:

4.   Ensure that verifiable and measurable outcome based performance
     indicators are established for its drug demand reduction programs.

5.   Ensure that the performance indicator table in its budget submission
     for the OMB is revised to adequately disclose the data source for
     performance indicators related to the number of drug counseling hours
     provided.


     We recommend that the Director, COPS Office:

6.   Ensure that verifiable and measurable outcome based performance
     indicators are established for its COPS in Schools Program.


     We recommend that the Administrator, DEA:

7.   Ensure that verifiable and measurable performance indicators are
     developed for its drug demand reduction programs.


     We recommend that the Assistant Attorney General, OJP:

8.   Ensure that verifiable and measurable outcome based performance
     indicators are established for each of its 12 programs identified in this
     report.


                                    - 47 -
III.   COORDINATION OF DRUG DEMAND REDUCTION ACTIVITIES

       We found that that multiple DOJ programs address similar drug
       demand reduction purpose areas; however, most of these programs
       provided services to different categories of recipients or different
       geographical locations. Although our audit did not disclose any
       significant duplication of drug demand reduction activities among the
       DOJ components, since multiple programs address similar purpose
       areas, the components should have a mechanism for sharing
       information, resources, and technical assistance. Currently, there is
       no formalized mechanism within the DOJ for sharing drug demand
       reduction information among the components.


Analysis of DOJ Drug Demand Reduction Activities

      To identify those DOJ programs that address similar drug demand
reduction activities, we distributed questionnaires to program officials for
each of the DOJ drug demand reduction programs. The questionnaires
asked each of the program officials to identify those programs that
addressed eight purpose areas identified as drug demand reduction.
Additionally, we compared the strategic goals, objectives, and mission of
each program to determine those programs that directly addressed similar
purpose areas. We obtained completed questionnaires for 9 of the 10 DOJ
drug demand reduction programs. We did not receive a completed
questionnaire for the DEA IDEA Program despite numerous requests to the
DEA. Based on our analysis and the responses in the completed
questionnaires, we identified the number of programs that addressed the
eight drug demand reduction purpose areas, as shown in the table on the
following page.




                                    - 48 -
                                                                    Number of
          Purpose Area                                           DOJ Programs
        Drug prevention education for youth, parents,
        teachers, employers, community leaders, offenders,
        and other service providers                                      4
        Drug treatment and rehabilitation for adult and
        juvenile offenders25                                             5
        Assistance for communities in developing and
        implementing a community-wide approach to drug
        demand reduction efforts26                                       1
        Assistance for communities in anti-legalization
        efforts                                                          1
        Assistance for employers in drug-free workplace
        efforts                                                          1
        Assistance for communities in developing or
        implementing accountability-based sanctions for
        non-violent offenders as an alternative to
        incarceration                                                    2
        Development, testing, and evaluation of promising
        drug demand reduction programs                                   1
        Research and data collection for the analysis of
        drug use, prevention efforts, and treatment
        programs                                                         1


      Specifically, the responses to our questionnaires indicated that the BOP
Drug Abuse Education Program, DEA Demand Reduction Section, and OJP
Residential Substance Abuse Treatment Program and Drug Prevention
Demonstration Program all provide drug abuse education. The four BOP
drug demand reduction programs, OJP Residential Substance Abuse
Treatment Program, Indian Alcohol and Substance Abuse Demonstration
Program and the Drug Courts Program all provide drug treatment for
offenders.

       We further analyzed the programs that addressed similar drug demand
reduction purpose areas to identify any duplication of efforts. Our analysis
did not disclose any significant duplication of drug demand reduction
activities among the DOJ components. Generally, we found that most of the

25
   Drug treatment for offenders includes aftercare services once an inmate has been
released.
26
  This includes supporting or developing community coalitions, enhanced enforcement in
conjunction with increased prevention and treatment efforts, and supporting community-
based service providers.

                                          - 49 -
programs provided services to different categories of recipients or different
geographical locations. For example,

   •   The BOP Drug Abuse Education Program and OJP Residential
       Substance Abuse Treatment Program both provide drug abuse
       prevention education to inmates; however, the BOP provides services
       to federal inmates while OJP’s Residential Substance Abuse Treatment
       Program provides grants for services to state and local inmates.

   •   The BOP Residential Drug Abuse Treatment Program, Non-residential
       Drug Abuse Treatment Program and Transitional Drug Abuse
       Treatment Program, and OJP Residential Substance Abuse Treatment
       Program and Drug Courts Program all provide drug treatment to
       offenders. However, the BOP provides services to federal inmates,
       OJP’s Residential Substance Abuse Treatment Program provides grants
       for services to state and local inmates, and OJP’s Drug Courts Program
       provides grants for services to state and local offenders as an
       alternative to incarceration.

   •   The DEA IDEA Program and OJP Weed and Seed Program both include
       enhanced enforcement in conjunction with the development and
       implementation of a community-wide approach to prevention efforts.
       Albeit, the OJP Weed and Seed program is related to violent crime as a
       whole, while the DEA IDEA program focuses on drug related crime and
       prevention. Our audit disclosed that neither program provided
       services to the same site during the same fiscal year. However, the
       DEA IDEA Program is still in the early stages of development with only
       three pilot sites selected; therefore, coordination among the two
       components is necessary to avoid any duplication of efforts.


Coordination of DOJ Drug Demand Reduction Efforts

       To identify the extent of coordination of DOJ drug demand reduction
efforts within and among the BOP, DEA, and OJP related to the 10 DOJ drug
demand reduction programs, we interviewed program officials and
distributed questionnaires to program officials for each of the programs.
Based on our review, we determined that generally, each component had a
mechanism in place for coordination and information sharing within the
component.




                                    - 50 -
      We also determined that on occasion the DOJ components appear to
coordinate specific drug demand efforts. For example:

     •   According to DEA officials, the DEA Demand Reduction Section has
         received training and technical assistance from OJP.

     •   Weed and Seed Program officials stated that the Executive Office for
         Weed and Seed worked with DEA on the development of its IDEA
         Program.

      However, these coordination efforts appear to be ad hoc, occurring
only when one of the participants requires additional financial or technical
resources. The responses to our questionnaires also indicated that there is
no formalized mechanism in place for information sharing among the
components. All the components believed that it would be beneficial to meet
on a regular basis with representatives from other components who are
involved in drug demand reduction programs, in order to share information,
resources, and technical assistance.

        During the course of our audit, we determined that the OLP is in the
process of developing a DOJ drug control strategy. The mission of the OLP is
to plan, develop, and coordinate the implementation of major policy
initiatives of high priority to the DOJ and its administration. We discussed
coordination of the DOJ drug demand reduction programs with OLP officials,
and they agreed that a formalized process for sharing information among
the components is necessary.


Recommendation

     We recommend that the Director, BOP; the Administrator, DEA;
and the Assistant Attorney General, OJP:

9.       Work with the OLP to develop a formalized mechanism for coordinating
         and sharing information related to drug demand reduction activities
         among the components.




                                     - 51 -
IV.      DEA DRUG DEMAND REDUCTION ACTIVITIES AND FUNDING

         We found that the DEA’s FY 2001 obligations dedicated to demand
         reduction consisted of only $3 million (0.2 percent) of the DEA’s total
         obligations of $1.4 billion. In our judgment, the DEA should evaluate
         what impact it can achieve on its stated objective “to educate local
         audiences with aggressive drug demand reduction programs” with
         such a small percentage of its funding devoted to drug demand
         reduction activities.


DEA Drug Demand Reduction Activities

       The DEA Demand Reduction Section was established in 1986 to
support and coordinate the DEA’s prevention activities throughout the
nation. The Demand Reduction Section is located within the Office of
Congressional and Public Affairs, which also includes the (1) Museum Staff,
(2) Information Services Staff, (3) Congressional Affairs Section, (4) Public
Affairs Section, and (5) Audio Visual Staff. As stated in Finding I, in the
DEA’s Strategic Plan the specific strategic objective related to the DEA
Demand Reduction Section is “to educate local audiences with aggressive
drug demand reduction programs.”

       During the period covered by our audit, the DEA’s Demand Reduction
Section consisted of 8 headquarters staff and 27 DRCs. The DEA
Headquarters Demand Reduction Section staff oversees the development of
prevention and public awareness strategies, directs field division prevention
activities and initiatives, and coordinates national drug demand reduction
conferences and training. In each of the DEA’s 22 field divisions, and other
operational units throughout the country, there were a total of 27 DRCs,
primarily DEA Special Agents. The DRCs are responsible for providing
timely, accurate, and persuasive information that builds support for effective
drug enforcement and educates the public of the dangers of drugs and the
effects of drug use and abuse on the nation.27

     The DEA has established goals and objectives for its Demand
Reduction Section, as shown on the following pages.




27
     Demand Reduction Program, Report of Fiscal Activities, FY 2000.

                                            - 52 -
Goal I:     Establish an aggressive program of public awareness
            education for opinion and community leaders by:

            •   educating them about the current drug threat and the
                linkages between drugs, violence and crime; and

            •   providing accurate, complete, and current information on why
                legalization or liberalization of the nation’s drug policy is ill-
                conceived and dangerous.

Goal II:    Reach millions of school-aged children with appropriate
            and specific drug education and prevention programs by:

            •   supporting well-designed youth programs, for example, Boys
                and Girls Clubs of America, Drug Abuse Resistance Education
                (D.A.R.E.), and Law Enforcement Explorers, that provide
                children with the tools they need to resist drugs and offer
                positive alternatives to drug use;

            •   providing drug education and prevention training and
                materials to teachers, coaches, counselors, and volunteers
                who work with children; and

            •   providing accurate, complete, and current prevention
                publications and other materials to schools and youth
                programs.

Goal III:   Provide support to reenergize the national parents’
            movement by:

            •   making parents aware of the dangers of drug use to their
                children;

            •   heightening parents’ awareness of current and emerging drug
                use trends;

            •   equipping parents to teach like skills and drug resistance to
                their children; and

            •   educating and motivating parents to take a proactive role in
                their communities to address the issue of drug legalization.



                                      - 53 -
Goal IV:    Provide businesses and other employers with tools
            necessary for establishing and maintaining drug-free
            workplaces by:

            •   helping employers to understand and identify drug use on the
                job and to develop prevention programs for their employees;

            •   working in cooperation with national and local organizations
                of employers, (for example, Chambers of Commerce) to
                provide drug-free workplace training seminars; and

            •   providing initial training and assistance to help local groups of
                employers form coalitions and organizations to address work
                place issues and provide low-cost support services for smaller
                employers.

       According to the DEA, each DRC reports to the Special Agent in Charge
of the field division and directs his or her own drug demand reduction
activities. The DRCs’ activities should fall within the four goals of the
Demand Reduction Section. The DRCs’ activities generally focus on drug
demand reduction presentations to students, parents, law enforcement
officials, employers, and community leaders, but there is a wide range in the
variety of activities performed by the DRCs. The Demand Reduction
Quarterly Reports for the first quarter of 2001 include examples of the
variety of DRC drug demand reduction activities:

  •   The DRC for the Miami Field Division coordinated a Youth Leadership
      Retreat in Pensacola, Florida. The retreat included a private Blue
      Angels air show, a tour of the National Naval Air Museum, a beach
      barbeque, and a graduation dance. Classroom topics included
      information related drug pharmacology, leadership skills, public
      speaking, conflict resolution, raves, and ecstasy.

  •   The DRC for the Phoenix Field Division reported efforts to encourage
      citizens and civic groups to oppose state efforts to legalize any form of
      marijuana use and the legalization of hemp cultivation.

  •   The DRC for the Denver Field Division conducted several presentations
      to state and local law enforcement agencies on the issue of club drugs
      and raves.




                                     - 54 -
DEA Drug Demand Reduction Resources

      The DEA Demand Reduction Section is not included as a separate
budget decision unit within the DEA’s OMB budget submission. Instead the
Demand Reduction Section is funded from the DEA’s Management and
Administration budget decision unit. In FY 2001, the DEA reported to the
ONDCP total obligations for its Demand Reduction Section of about
$3 million, which comprised 3 percent of the $100 million total Management
and Administration obligations, and 0.2 percent of the $1.4 billion total
agency obligations. As stated in Finding I of this report, we noted concerns
related to the DEA’s estimates used to report drug demand reduction
obligations. As a result, the financial information reported to the ONDCP
might not be accurate. Also as stated in Finding II, the DEA has not
developed adequate performance indicators to measure the success of its
drug demand reduction activities. Based on our review of the DEA’s drug
demand reduction strategic objective, and financial information, we believe
the DEA should evaluate what impact it can achieve on its stated objective
“to educate local audiences with aggressive drug demand reduction
programs” with such a small percentage of its funding (0.2 percent) devoted
to drug demand reduction activities.

      In recent DEA statements, it appears that the DEA plans to devote
additional resources to its drug demand reduction efforts in the future. In
December 2001, the DEA Administrator announced plans to double the
number of DRCs in the field and other operating divisions. Also in December
2001, the DEA Administrator announced the creation of the IDEA Program to
enhance the DEA’s existing drug demand reduction activities. In announcing
the establishment of the IDEA Program, the Administrator stated that “the
DEA’s mission to eliminate the supply of drugs in America through law
enforcement is the backbone of the anti-drug effort.” However, the
Administrator also stated that, “the DEA also recognizes and values the
importance of prevention and treatment in dealing with a community’s drug
program.”

       At the time of our audit, the IDEA Program was in the initial
development stage. For its IDEA Program the DEA plans to combine its
enforcement efforts with existing community drug prevention and treatment
programs to reduce the demand for drugs. To accomplish this objective the
DEA plans to identify drug trafficking targets and work with state and local
law enforcement to execute enforcement operations against the groups
identified. The DEA also plans to work with community groups to identify
local drug abuse problems, and solutions for these problems.


                                   - 55 -
     Since the IDEA Program was not initiated until December 2001, the
program was not included in the DEA’s FY 2003 OMB budget submission or
the DEA Management Assertion Statement; as a result, funding amounts
had not been established for the program.


DEA Drug Demand Reduction Expenditures

      We reviewed the FY 2001 DEA Demand Reduction Section
headquarters expenditures. The headquarters expenditures totaled
$485,519 of the $1 million total operating budget for the DEA Demand
Reduction Section. The remaining funds were allocated for the DRCs in the
DEA field offices. We determined that $184,332 (38 percent) of total
headquarters expenditures was related to food for conferences and training
or DEA promotional materials and souvenirs. These expenditures consisted
of $71,469 for food for conferences and $112,863 for promotional materials
and souvenirs. The conferences included DEA sponsored Club Drug
Conferences, Methamphetamine Summits, Drugs in the Workplace Seminars,
and training with the Community Anti-Drug Coalitions of America. According
to DEA officials the attendees included law enforcement officials and
prevention and treatment specialists from federal, state, local, and nonprofit
organizations.

       The $112,863 for promotional materials and souvenirs included
t-shirts, tote bags, baseball caps, pins, key holders, golf balls, and pencils.
The DEA officials stated that the promotional materials and souvenirs are
used as a public awareness tool to get the message of the dangers of drugs
to children. However, our review revealed that the promotional materials
and souvenirs included in the $112,863 of headquarters expenditures were
provided to conference attendees. As stated above, the conference
attendees included law enforcement officials and prevention and treatment
specialists. In our judgment, the DEA is expending a large portion of its
limited drug demand reduction operating budget on promotional materials
and souvenirs for other drug demand reduction professionals, rather than
their target audience of children, parents, community leaders, and
employers.


Conclusion

      The DEA has established specific goals and objectives for its Demand
Reduction Section. However, each DRC directs his or her own drug demand
reduction activities and reports to the Special Agent in Charge of the field

                                     - 56 -
division; as a result, there is a wide range in the variety of activities
performed by the DRCs. We found that the DEA’s FY 2001 obligations
dedicated to demand reduction consisted of only $3 million (0.2 percent) of
the $1.4 billion in total obligations. Of this amount, the Demand Reduction
Section headquarters spent $184,332 on food for conferences and training
or DEA promotional materials and souvenirs.


Recommendation

      We recommend that the Administrator, DEA:

10.   Evaluate what impact it can achieve on its stated objective “to educate
      local audiences with aggressive drug demand reduction programs”
      with such a small percentage of its funding devoted to drug demand
      reduction activities.




                                   - 57 -
                                                                            APPENDIX I

                  STATEMENT ON COMPLIANCE WITH
                      LAWS AND REGULATIONS


      As required by Government Auditing Standards, we audited the drug
demand reduction activities of the BOP, COPS Office, DEA, and OJP in order
to obtain reasonable assurance that each component complied with laws and
regulations, that, if not complied with, in our judgment could have a
material effect on the administration of its drug demand reduction activities.
Compliance with laws and regulations applicable to the drug demand
reduction activities is the responsibility of the BOP, COPS Office, DEA, and
OJP management. An audit includes examining, on a test basis, evidence
about compliance with laws and regulations. At the time of our audit, the
pertinent legislation and the applicable regulations are:

The Office of National Drug Control Policy Reauthorization Act of
1988 (Public Law 105-277, dated October 21, 1998); Codified in
21 U.S.C. § 1701 – 1712

      This law provides the authority for the ONDCP’s oversight on the
National Drug Control Program. Specifically, the drug-related financial
information contained in this report was covered under:

     •   ONDCP Circular: Budget Instructions and Certification Procedures,
         dated May 5, 1999,28 provides instructions for components when
         preparing drug control budgets submitted to the ONDCP for review,
         certification, and inclusion in the consolidated National Drug Control
         Budget.

     •   ONDCP Circular: Annual Accounting of Drug Control Funds, dated
         December 17, 1999,29 provides the policies and procedures to be used
         by components in conducting a detailed accounting and authentication
         of all funds expended on National Drug Control Programs activities.

28
   This circular was replaced by ONDCP Circular: Budget Formulation, dated May 30, 2002;
and ONDCP Circular: Budget Execution, dated May 30, 2002; however, the revised
circulars did not affect any the historical drug demand reduction financial related
information included in this report.
29
   This circular was replaced by ONDCP Circular: Drug Control Accounting, dated May 30,
2002; however, the revised circular did not affect any the historical drug demand reduction
financial related information included in this report.

                                          - 58 -
Government Performance Results Act of 1993 (Public Law 103-62)

      This Act requires agencies to develop strategic plans that identify long
range strategic goals and objectives; annual plans that set forth
corresponding annual goals and indicators of performance; and annual
reports that describe the actual levels of performance.

                                    ♦      ♦       ♦
      As stated in Finding I of this report, the methodologies used to
estimate drug demand reduction obligations might not accurately reflect the
DOJ’s drug demand reduction activities. However, the financial-related
information was prepared in accordance with the December 1999 Accounting
Circular,30 based upon methodologies established in conjunction with the
ONDCP. Therefore, in our judgment, the BOP, COPS Office, DEA, and OJP
complied with all applicable legislation.




30
   The December 1999 Accounting Circular was revised effective May 30, 2002. The revised
circular contains provisions that would eliminate most of the estimates used previously to
report drug demand reduction obligations. Generally, only those programs that are entirely
related to drug demand reduction are required to report financial information; thus,
eliminating the use of estimates.

                                         - 59 -
                                                                APPENDIX II

            STATEMENT ON MANAGEMENT CONTROLS


      In planning and performing our audit of the DOJ’s drug demand
reduction activities, we considered the management controls of the BOP,
COPS Office, DEA, and OJP for the purpose of determining our auditing
procedures. An evaluation of the BOP, COPS Office, DEA, and OJP was not
made for the purpose of providing assurance on the management control
structure as a whole; however, we noted certain matters that we consider
reportable conditions under generally accepted government auditing
standards.

       The reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
management control structure of the BOP, COPS Office, DEA, and OJP that,
in our judgment, could adversely affect the ability to effectively manage its
drug demand reduction activities. During our audit, we found the following
management control deficiencies.

   •   For those programs not entirely drug demand reduction, there does
       not appear to be any data supporting estimated percentages used to
       report drug demand reduction obligations, see Finding I.

   •   The current performance indicators do not adequately measure drug
       demand reduction program effectiveness. Further, not all data used to
       report the results for the performance indicators is verified for
       accuracy, see Finding II.

   •   There does not appear to be any formalized mechanism in place for
       information sharing among the DOJ components to reduce any
       duplication of efforts, maximize resources, coordinate program
       activities, and exchange technical assistance, see Finding III.

      Because we are not expressing an opinion on the overall management
control structure of the BOP, COPS Office, DEA, and OJP, this statement is
intended solely for the information and use of the BOP, COPS Office, DEA,
and OJP in managing its drug demand reduction programs and activities.




                                    - 60 -
                                                                        APPENDIX III

             OBJECTIVES, SCOPE, AND METHODOLOGY


       The OIG, Audit Division, conducted an audit to identify and review the
DOJ’s drug demand reduction activities. Specifically, the objectives of the
audit were to (1) identify all DOJ programs that related to drug demand
reduction, to quantify the total amount of DOJ obligations for each program,
and to verify that financial information provided to the Office of the National
Drug Control Policy (ONDCP)31 was prepared in accordance with its circulars;
(2) determine whether the DOJ performance measures are adequate to
determine the success of programs; (3) identify whether DOJ drug demand
reduction activities were duplicative and whether DOJ components were
coordinating drug demand reduction efforts; and (4) review the DEA
activities and funding dedicated to drug demand reduction.

      In this audit, we conducted approximately 50 interviews with over
60 officials from the BOP, COPS Office, DEA, OJP, OLP, JMD, and ONDCP.
Additionally, we conducted fieldwork at the DEA Rocky Mountain Field
Division and the BOP Florence Federal Correctional Institute. We also
reviewed DOJ policies and procedures, program information, strategic and
program plans, budget documentation, organizational structures,
Congressional testimony, and prior OIG and General Accounting Office
reports related to drug demand reduction.

      We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were necessary to accomplish the
audit objectives.

     The audit generally covered, but is not limited to, the period of
FY 2000 to the present. Audit work was conducted at the BOP, COPS Office,
DEA, OJP, OLP, ONDCP, and selected field site locations.

      To identify all DOJ drug demand reduction programs and the total
amount of obligations for each program, we reviewed the FY 2001 DOJ
Management Assertion Statements submitted to the ONDCP. For each of the
four components identified, the BOP, COPS Office, DEA, and OJP, we
reviewed the documentation supporting the Management Assertion

31
  The ONDCP is a component within the Executive Office of the President of the United
States, and is not a part of the DOJ. The ONDCP was created to set national drug control
priorities and implement the National Drug Control Strategy.

                                          - 61 -
Statements and interviewed program officials within each component to
identify the programs included as drug demand reduction.

      To identify the program missions, strategic goals, and objectives, for
the each of the 20 DOJ programs reported as drug demand reduction, we
interviewed program officials; and obtained: (1) the components’ budget
submissions for the OMB; (2) the strategic plans for each component, if
available; (3) the DOJ strategic plan for those components that did not
develop its own strategic plan; and (4) other program documentation. We
reviewed the information to determine whether the programs were directly
related to drug demand reduction based on the programs mission, strategic
goals, and objectives.

      Additionally, for the BOP, COPS Office, DEA, OJP we obtained the
Management Assertion Statement submitted to the ONDCP for FY 2001, the
Attestation Report prepared by the certified public accounting firm and
supporting documentation, to determine the component’s methodology for
reporting drug demand reduction drug-related financial information and
whether the information provided to the ONDCP was prepared in accordance
with ONDCP circulars, reviewed by a independent certified public accounting
firm, and appeared reasonable.

      To assess whether the DOJ performance measures are adequate to
determine the success of programs (i.e., outcome based measures rather
than output based measures), we obtained the performance indicators for
each program from the components budget submission for the OMB and
reviewed the performance indicators to determine whether the performance
indicators were: (1) supported with adequate data; (2) consistent with the
drug treatment programs strategic goals, objectives and mission; and
(3) output based, measuring the number of tasks or activities of a program
or outcome based, measuring results and outcomes of program activities.

       To identify those programs that address similar drug demand
reduction purpose areas, we distributed questionnaires to program officials
for each of the 10 DOJ programs identified as drug demand reduction.
Based on the responses to the questionnaires, we identified the number of
programs that either directly or indirectly address similar purpose areas. In
conjunction with the questionnaires, we reviewed the mission, strategic
goals, and objectives for each program to identify those programs that
directly addressed similar purpose areas. Additionally, for those programs
that provide overlapping drug demand reduction services, we obtained a
listing of sites for each program to identify any duplication of efforts.


                                    - 62 -
      Finally, to identify the extent of coordination of the DOJ drug demand
reduction efforts, we interviewed program officials and distributed
questionnaires for each of the 10 DOJ programs identified as drug demand
reduction.




                                    - 63 -
                                                                 APPENDIX IV

                  OFFICE OF JUSTICE PROGRAMS
                BUREAUS, PROGRAM OFFICES, AND
                 AGENCY-WIDE SUPPORT OFFICES


      At the time of our audit, OJP consisted of the following five bureaus,
six program offices, and seven offices that provide agency-wide support.


OJP Bureaus

   •   The Bureau of Justice Assistance (BJA) provides funding, training,
       and technical assistance to state and local governments to combat
       violent and drug-related crime and to help improve the criminal justice
       system.

   •   The Bureau of Justice Statistics (BJS) collects and analyzes
       statistical data on crime, criminal offenders, crime victims, and the
       operations of justice systems at all level of government.

   •   The National Institute of Justice (NIJ) supports research and
       development programs, conducts demonstrations of innovative
       approaches to improve criminal justice, tests new criminal justice
       technologies, provides technology assistance, evaluates the
       effectiveness of justice, and disseminates research findings to
       practitioners and policymakers.

   •   The Office of Juvenile Justice and Delinquency Prevention
       (OJJDP) provides federal leadership in preventing and controlling
       juvenile crime and improving the juvenile justice system at the state
       and local levels.

   •   The Office for Victims of Crime (OVC) works to enhance the Nation’s
       capacity to assist crime victims and to provide leadership in changing
       attitudes, policies, and practices to promote justice and healing for all
       victims of crime.




                                     - 64 -
OJP Program Offices

   •   The Corrections Program Office (CPO) administers two major
       formula grant programs and provides technical assistance to state and
       local governments to help them with the implementation of the 1994
       Crime Act’s corrections related programs.

   •   The Drug Courts Program Office (DCPO) administers the 1994
       Crime Act’s Drug Courts Program which provides support for the
       development, implementation and improvement of state, local and
       tribal drug courts.

   •   The Violence Against Women Office (VAWO) administers programs
       designed to help prevent and respond to violence against women,
       including domestic violence, sexual assault, and stalking.

   •   The Office for State and Local Domestic Preparedness Support
       (OSLDPS) is responsible for enhancing the capability of state and local
       jurisdictions to prepare for and respond to incidents of domestic
       terrorism involving chemical and biological agents, radiological and
       explosive devices, and other weapons of mass destruction.

   •   The Office of the Police Corps and Law Enforcement Education
       (OPCLEE) provides college educational assistance to students who
       commit to public service in law enforcement, and scholarships to
       students with no service commitment, who are dependents of law
       enforcement officers who died in the line of duty.

   •   The Executive Office for Weed and Seed (EOWS) coordinates the
       Weed and Seed Program strategy, a community-based, multi-
       disciplinary approach to combating crime.


OJP Agency-wide Support Offices

      Seven offices within OJP provide agency-wide support. They are the
Office of Congressional and Public Affairs (OCPA), the Office of General
Counsel (OGC), the Office of Administration (OA), the Office for Civil Rights
(OCR), the Office of Budget and Management Services (OBMS), the Equal
Employment Opportunity Office (EEO), and the Office of the Comptroller
(OC).



                                     - 65 -
                                                                 APPENDIX V

                   DEPARTMENT OF JUSTICE
              STRATEGIC PLAN FOR FY 2001 - 2006
                STRATEGIC OBJECTIVES BY GOAL


Goal 1:     Protect America Against the Threat of Terrorism.

Objective 1: Prevent, disrupt, and defeat terrorist operations before they
             occur.

Objective 2: Develop and implement the full range of resources available to
             investigate terrorist incidents, bringing the perpetrators to
             justice.

Objective 3: Vigorously prosecute those who have committed, or intend to
             commit, terrorist acts against the United States.


Goal 2: Enforce Federal Criminal Laws

Objective 1: Reduce the threat, incidents, and prevalence of violent crime,
             especially as it stems from illegal use of guns or from organized
             criminal enterprises.

Objective 2: Reduce the threat, trafficking, and related violence of illegal
             drugs by identifying, disrupting, and dismantling drug
             trafficking organizations.

Objective 3: Combat espionage against the United States by strengthening
             counterintelligence capabilities.

Objective 4: Combat white collar and economic crime, especially
             cybercrime.

Objective 5: Combat crimes against children and other vulnerable victims of
             violence and exploitation.




                                     - 66 -
Goal 3: Prevent and Reduce Crime and Violence By Assisting State,
        Tribal, Local, and Community-Based Programs

Objective 1: Improve the crime fighting and criminal justice administration
             capabilities of state, tribal, and local governments.

Objective 2: Reduce youth crime and victimization through assistance that
             emphasizes both enforcement and prevention.

Objective 3: Break the cycle of drugs and violence by reducing the demand
             for and use and trafficking of illegal drugs.

Objective 4: Uphold the rights of and improve services to America’s crime
             victims.

Objective 5: Support innovative cooperative and community-based
             programs aimed at reducing crime and violence and promote
             resolution of racial tension.


Goal 4: Protect the Rights and Interests of the American People By
        Legal Representation, Enforcement of Federal Laws, and
        Defense of United States Interests

Objective 1: Uphold the civil rights of all Americans, reduce racial
             discrimination, and promote reconciliation through vigorous
             enforcement of civil rights laws.

Objective 2: Promote the stewardship of America’s environment and natural
             resources through the enforcement and defense of
             environmental laws and programs.

Objective 3: Promote economic competition through enforcement of and
             guidance on antitrust laws and principles.

Objective 4: Promote the fair, correct, and uniform enforcement of the
             federal tax laws and the collection of tax debts to protect the
             federal fisc from unjustified claims.

Objective 5: Effectively represent the interests of the United States in all
             civil matters for which the DOJ has jurisdiction.



                                     - 67 -
Goal 5: Fairly and Effectively Administer the Immigration and
        Naturalization Laws of the United States.

Objective 1: Secure America’s borders, especially to reduce the incidence of
             alien smuggling.

Objective 2: Promote public safety by combating immigration-related crimes
             and removing individuals, especially criminals, who are
             unlawfully present in the United States.

Objective 3: Provide timely and consistent services and achieve a
             substantial reduction in the benefits processing backlog.

Objective 4: Improve operation efficiency and organizational effectiveness of
             the INS workforce.

Objective 5: Provide accurate, easy-to-use, readily accessible, and up-to-
             date information to meet planning and operational needs.

Objective 6: Improve the efficiency of the inspections process for lawful
             entry of persons and goods.

Objective 7: Adjudicate all immigration cases promptly and impartially in
             accordance with due process.


Goal 6: Protect American Society By Providing for the Safe, Secure,
        and Humane Confinement of Persons in Federal Custody

Objective 1: Provide for the safe, secure, and humane confinement of
             detained persons awaiting trial, sentencing, or immigration
             proceedings.

Objective 2: Ensure that sufficient and cost effective prison capacity exists
             so that violent and other serious criminal offenders are
             imprisoned to the fullest extent of the law.

Objective 3: Maintain and operate the federal prison system in a safe,
             secure, humane, and efficient manner.

Objective 4: Provide services and programs to facilitate inmates’ successful
             reintegration into society, consistent with community
             expectations and standards.

                                    - 68 -
Goal 7: Protect the Federal Judiciary and Provide Critical Support to
        the Federal Justice System to Ensure it Operates Effectively

Objective 1: Ensure the integrity and the safe and secure operation of the
             federal judicial system by protecting judges, witnesses, and
             other participants in federal proceedings.

Objective 2: Protect the rights of victims and assist them in moving through
             the process of the federal justice system.

Objective 3: Ensure the appearance of criminal defendants for judicial
             proceedings for confinement through a secure transportation,
             and ensure the apprehension of fugitives from justice.

Objective 4: Protect the integrity and ensure the effective operation of the
             Nation’s bankruptcy system.


Goal 8: Ensure Professionalism, Excellence, Accountability, and
        Integrity in the Management and Conduct of DOJ Activities
        and Programs

Objective 1: Promote integrity and professionalism to ensure the fair and
             impartial administration of justice.

Objective 2: Strengthen internal financial systems and promote the efficient
             and effective use of resources to ensure public trust and
             confidence.

Objective 3: Develop and maintain grant management accountability
             mechanisms to ensure proper disbursement and monitoring of
             funds.

Objective 4: Improve the integrity and security of computer systems and
             make more effective use of information technology.

Objective 5: Strengthen human resource recruitment, retention, and
             performance to ensure a workforce that is skilled, diverse, and
             committed to excellence.




                                    - 69 -
                                                              APPENDIX VI

        OFFICE OF NATIONAL DRUG CONTROL POLICY
           NATIONAL DRUG CONTROL STRATEGY
             STRATEGIC OBJECTIVES BY GOAL


Goal 1: Educate and enable America’s youth to reject illegal drugs
        as well as alcohol and tobacco.

Objective 1: Educate parents and other care givers, teachers, coaches,
             clergy, health professionals, and business and community
             leaders to help youth reject illegal drugs and underage alcohol
             and tobacco use.

Objective 2: Pursue a vigorous advertising and public communications
             program dealing with the dangers of illegal drugs, alcohol, and
             tobacco use by youth.

Objective 3: Promote zero tolerance policies for youth regarding the use of
             illegal drugs, alcohol, and tobacco within the family, school,
             workplace, and community.

Objective 4: Provide students in grades K-12 with alcohol, tobacco, and
             drug prevention programs and policies that are research based.

Objective 5: Support parents and adult mentors in encouraging youth to
             engage in positive, healthy lifestyles and modeling behavior to
             be emulated by young people.

Objective 6: Encourage and assist the development of community coalitions
             and programs in preventing drug abuse and underage alcohol
             and tobacco use.

Objective 7: Create partnerships with the media, entertainment industry,
             and professional sports organizations to avoid the
             glamorization, condoning, or normalization of illegal drugs and
             the use of alcohol and tobacco by youth.

Objective 8: Develop and implement a set of research-based principles upon
             which prevention programming can be based.


                                   - 70 -
Objective 9: Support and highlight research, including the development of
             scientific information, to inform drug, alcohol, and tobacco
             prevention programs targeting young Americans.


Goal 2: Increase the safety of America’s citizens by substantially
        reducing drug-related crime and violence.

Objective 1: Strengthen law enforcement – including federal, state, and
             local drug task forces – to combat drug-related violence,
             disrupt criminal organizations, and arrest and prosecute the
             leaders of illegal drug syndicates.

Objective 2: Improve the ability of High Intensity Drug Trafficking Areas
             (HIDTAs) to counter drug trafficking.

Objective 3: Help law enforcement to disrupt money laundering and seize
             and forfeit criminal assets.

Objective 4: Break the cycle of drug abuse and crime.

Objective 5: Support and highlight research, including the development of
             scientific information and data, to inform law enforcement,
             prosecution, incarceration, and treatment of offenders involved
             with illegal drugs.


Goal 3: Reduce health and social costs to the public of illegal drug
        use.

Objective 1: Support and promote effective, efficient, and accessible drug
             treatment, ensuring the development of a system that is
             responsive to emerging trends in drug abuse.

Objective 2: Reduce drug-related health problems, with an emphasis on
             infectious diseases.

Objective 3: Promote national adoption of drug-free workplace programs
             that emphasize a comprehensive program that includes: drug
             testing, education, prevention, and intervention.

Objective 4: Support and promote the education, training, and credentialing
             of professionals who work with substance abusers.

                                   - 71 -
Objective 5: Support research into the development of medications and
             related protocols to prevent or reduce drug dependence and
             abuse.

Objective 6: Support and highlight research and technology, including the
             acquisition and analysis of scientific data, to reduce the health
             and social costs of illegal drug use.

Objective 7: Support and disseminate scientific research and data on the
             consequences of legalizing drugs.


Goal 4: Shield America’s air, land, and sea frontiers from the drug
        threat.

Objective 1: Conduct flexible operations to detect, disrupt, deter, and seize
             illegal drugs in transit to the United States and at United States
             borders.

Objective 2: Improve the coordination and effectiveness of United States
             drug law enforcement programs with particular emphasis on
             the Southwest Border, Puerto Rico, and the United States
             Virgin Islands.

Objective 3: Improve bilateral and regional cooperation with Mexico as well
             as other cocaine and heroin transit zone countries in order to
             reduce the flow of illegal drugs into the United States.

Objective 4: Support and highlight research and technology – including the
             development of scientific information and data – to detect,
             disrupt, deter, and seize illegal drugs in transit to the United
             States and at United States borders.


Goal 5: Break foreign and domestic drug sources of supply.

Objective 1: Produce a net reduction in the worldwide cultivation of coca,
             opium, and marijuana and in the production of other illegal
             drugs, especially methamphetamine.

Objective 2: Disrupt and dismantle major international drug trafficking
             organizations and arrest, prosecute, and incarcerate their
             leaders.

                                    - 72 -
Objective 3: Support and complement source country drug control efforts
             and strengthen source country political will and drug control
             capabilities.

Objective 4: Develop and support bilateral, regional, and multilateral
             initiatives and mobilize international organizational efforts
             against all aspects of illegal drug production, trafficking, and
             abuse.

Objective 5: Promote international policies and laws that deter money
             laundering and facilitate anti-money laundering investigations
             as well as seizure and forfeiture of associated assets.

Objective 6: Support and highlight research and technology – including the
             development of scientific information and data – to detect,
             disrupt, deter, and seize illegal drugs in transit to the United
             States and at United States borders.




                                     - 73 -
                                                               APPENDIX VII

                    OFFICE OF JUSTICE PROGRAMS
                     PERFORMANCE INDICATORS

          PERFORMANCE              FY 2000      FY 2001   FY 2001    FY 2002
            INDICATOR               Actual        Plan     Actual      Plan
Byrne Discretionary Grant
Program
  Number of projects funded to
  develop, implement, and
  document drug and violent
  crime practices                       75          ---        67         72
  Technical Assistance
  Programs funded to support
  drug and violent crime
  program sites                         31          ---        34         21
Byrne Formula Grant
Program
  Number of Byrne Formula
  supported multi-jurisdictional
  task force projects, as
  projected/allocated by states
  (includes drug task forces)          857          ---       879        879
  Byrne Formula funding
  directed toward Byrne
  Formula supported multi-
  jurisdictional task force
  projects, as                     $188.7 M         ---   $194.5 M   $194.5 M
  projected/allocated by states
  (includes drug task forces)      (39.41%)         ---   (42.28%)   (42.28%)
Indian Alcohol and Substance
Abuse Demonstration Program
  Number of alcohol and
  substance abuse community-
  based programs available for
  arrestees and their family
  members                                0          ---         0          7
  Number of detention or
  probation-based alcohol and
  substance abuse programs
  available to offenders                 0          ---         0          7
Criminal Records Upgrade
Program
  Percentage of recent state
  records which are automated           ---        91%         ---        ---




                                       - 74 -
          PERFORMANCE               FY 2000      FY 2001   FY 2001    FY 2002
            INDICATOR                Actual        Plan     Actual      Plan
  Percentage of records
  accessible through the
  Interstate Identification Index
  (III)                                  ---      60.7%         ---        ---
  Number of records available
  through Interstate
  Identification Index (III)             ---     $41.4 M        ---        ---
  Number of states with
  automated interface between
  sex offender registry and
  other state systems/agencies           ---         26         26        27
Residential Substance Abuse
Treatment Program
  Number of Residential
  Substance Abuse Treatment
  Programs initiated, or
  expanded, in state and local
  correctional facilities
  (cumulative)                          151         170         ---      185
  Number of offenders treated
  for substance abuse
  (cumulative)                        29,172      36,465     39,718    40,840
Correctional Grant Programs
  Number of facilities under
  construction                           14          19         19        18
  Number of facilities available          2           2          2         9
  Number of beds projected for
  completion                            484         865        865      1,150
  Number of beds available               92          92         92        300
Weed and Seed Program
  Percent of participants who
  feel safe havens are working
  to reduce crime                       88%         80%        94%       80%
  Participants who feel that
  community policing is working
  to reduce crime (Percent of
  responses from customer
  survey)                               90%         80%        93%       80%
  Number of sites using the
  following policing activities:
   (a) foot patrols,                    152         132        179       128
   (b) bike patrols,                    161         142        195       138
   (c) substations,                     139         123        164       117
   (d) crime watch, and                 181         155        203       149
   (e) participation in
       community meetings               177         162        205       154

                                        - 75 -
          PERFORMANCE                FY 2000       FY 2001    FY 2001     FY 2002
            INDICATOR                 Actual         Plan      Actual       Plan
  Number of homicides per site             5.5         5.05         4.1        ---
  Number of drug arrests                37,593      34,873       49,090        ---
  Number of sites including a
  multi-jurisdictional task force          ---          ---         ---        ---
  Number of sites that have
  faith-based partners: (a) on
  the steering committee, (b)
  as the grantee, (c) as a sub-
  grantee                                  ---          ---         ---        ---
  Number of sites that have a
  prosecutor dedicated to trying
  firearms cases                           ---          ---         ---        ---
  Number of sites that have
  found other sources of
  funding                                  ---          ---         ---        ---
Safe Start Program
  Number of program models
  developed through
  identification of best practices         ---          27          ---        27
  Number of system
  improvement activities
  identified within existing
  demonstration sites                      ---          18          ---        18
Title V - Tribal Youth
Programs
  Number of Project Sentry
  "Safe School Task Forces"
  established within the School
  Safety Initiative                        ---          ---         ---        ---
  Number of Tribes
  Implementing Programs
  within:
  (a) category I - reduce,
      control, prevent crime and
      delinquency both by and
      against tribal youth;
  (b) category II - interventions          61           ---         ---        ---
      of court-involved tribal
      youth;
                                           51           ---         ---        ---
  (c) category III -
      improvement to tribal
      juvenile justice systems;            30           ---         ---        ---
  (d) category IV - prevention
      programs focusing on
      drugs and alcohol; and               43           ---         ---        ---
  (e) tribal mental health                 11           ---         ---        ---

                                          - 76 -
          PERFORMANCE            FY 2000        FY 2001    FY 2001      FY 2002
            INDICATOR             Actual          Plan      Actual        Plan
      services
  Number of underage drinking
  programs implemented
  (Discretionary)                       20          28            28         36
  Number of community
  prevention programs
  implemented                          510         510            ---       510
Drug Prevention Demonstration
Program
  Number of middle/junior high
  school students reached (life
  skills program)                   70,739      111,329      111,329    145,797
  Number of prevention
  programs implemented (life
  skills program)                       35          35            35        ---
  Number of youth served
  (drug demonstration
  program)                              ---         ---           ---       ---
Drug Courts Program
  Number of new DCPO-funded
  drug courts                           56          56            49        50
  Cumulative number of DCPO-
  funded drug courts                   327         381           376       426
  Percent of drug court program
  participants in grantee
  programs that do not commit
  other crimes while
  participating in the program        80%          80%          80%        80%
  Number of operational DCPO-
  funded drug courts                   327         326           545        ---
  Establish partnerships with
  other agencies to provide
  training and technical
  assistance to grantees                13          ---           13        ---
  Establish IAAs with other
  federal agencies to support
  DCPO's mission                          3         ---            3        ---
  Number of participants who
  have graduated from DCPO-
  funded drug court programs    35,000 est.         ---   52,854 est.       ---
  Number of participants
  currently enrolled in DCPO-
  funded drug court programs    50,000 est.         ---   71,272 est.       ---




                                       - 77 -
                                                                APPENDIX VIII

           OFFICE OF JUSTICE PROGRAMS
    DATA SOURCES FOR PERFORMANCE INDICATORS

          PERFORMANCE INDICATOR                         DATA SOURCE
Byrne Discretionary Grant Program
  Number of projects funded to develop,
  implement, and document drug and violent         BJA’s Program Development
  crime practices                                      Division’s Database
  Technical Assistance Programs funded to          BJA’s Program Development
  support drug and violent crime program sites         Division’s Database
Byrne Formula Grant Program
  Number of Byrne Formula supported multi-
  jurisdictional task force projects, as
  projected/allocated by states (includes drug         BJA/SLAD Division
  task forces)                                      “Attachement A” System
  Byrne Formula funding directed toward
  Byrne Formula supported multi-jurisdictional
  task force projects, as projected/allocated by       BJA/SLAD Division
  states (includes drug task forces)                “Attachement A” System
Indian Alcohol and Substance Abuse
Demonstration Program
  Number of alcohol and substance abuse
  community-based programs available for              Grantee Semi-annual
  arrestees and their family members                    progress reports
  Number of detention or probation-based
  alcohol and substance abuse programs                Grantee Semi-annual
  available to offenders                                progress reports
Criminal Records Upgrade Program
  Percentage of recent state records which are
  automated                                               BJS Report
  Percentage of records accessible through the
  Interstate Identification Index (III)                   BJS Report
  Number of records available through
  Interstate Identification Index (III)                   BJS Report
  Number of states with automated interface
  between sex offender registry and other
  state systems/agencies                              BJS Report and FBI
Residential Substance Abuse Treatment
Program
  Number of Residential Substance Abuse
  Treatment Programs initiated, or expanded,
  in state and local correctional facilities          Project Reports and
  (cumulative)                                        Annual Evaluations
  Number of offenders treated for substance           Project Reports and
  abuse (cumulative)                                  Annual Evaluations

                                       - 78 -
           PERFORMANCE INDICATOR                   DATA SOURCE
Correctional Grant Programs
  Number of facilities under construction            CPO   Files
  Number of facilities available                     CPO   Files
  Number of beds projected for completion            CPO   Files
  Number of beds available                           CPO   Files
Weed and Seed Program
  Percent of participants who feel safe havens
  are working to reduce crime                         Survey
  Participants who feel that community
  policing is working to reduce crime (Percent
  of responses from customer survey)                  Survey
  Number of sites using the following policing
  activities:
   (f) foot patrols,
   (g) bike patrols,
   (h) substations,
   (i) crime watch, and
   (j) participation in community meetings         Site Reporting
  Number of homicides per site                     Site Reporting
  Number of drug arrests                           Site Reporting
  Number of sites including a multi-
  jurisdictional task force                        Site Reporting
  Number of sites that have faith-based
  partners: (a) on the steering committee, (b)
  as the grantee, (c) as a sub-grantee             Site Reporting
  Number of sites that have a prosecutor
  dedicated to trying firearms cases               Site Reporting
  Number of sites that have found other
  sources of funding                               Site Reporting
Safe Start Program
  Number of program models developed
  through identification of best practices          OJJDP Files
  Number of system improvement activities
  identified within existing demonstration sites    OJJDP Files
Title V - Tribal Youth Programs
  Number of Project Sentry "Safe School Task
  Forces" established within the School Safety
  Initiative                                       OJJDP Records




                                        - 79 -
          PERFORMANCE INDICATOR                            DATA SOURCE
  Number of Tribes Implementing Programs
  within:
 (f) category I - reduce, control, prevent
     crime and delinquency both by and
     against tribal youth;
 (g) category II - interventions of court-
     involved tribal youth;
 (h) category III - improvement to tribal
     juvenile justice systems;
 (i) category IV - prevention programs
     focusing on drugs and alcohol; and
 (j) tribal mental health services                         OJJDP Records
  Number of underage drinking programs
  implemented (Discretionary)                              OJJDP Records
  Number of community prevention programs
  implemented                                              OJJDP Records
Drug Prevention Demonstration Program
  Number of middle/junior high school
  students reached (life skills program)                Final Grantee Report
  Number of prevention programs
  implemented (life skills program)                        OJJDP Reports
  Number of youth served (drug
  demonstration program)                                   OJJDP Reports
Drug Courts Program
  Number of new DCPO-funded drug courts           American University Clearinghouse
  Cumulative number of DCPO-funded drug
  courts                                          American University Clearinghouse
  Percent of drug court program participants in
  grantee programs that do not commit other
  crimes while participating in the program       American University Clearinghouse
  Number of operational DCPO-funded drug
  courts                                          American University Clearinghouse
  Establish partnerships with other agencies to
  provide training and technical assistance to
  grantees                                                   DCPO Files
  Establish IAAs with other federal agencies to
  support DCPO's mission                                     DCPO Files
  Number of participants who have graduated
  from DCPO-funded drug court programs            American University Clearinghouse
  Number of participants currently enrolled in
  DCPO-funded drug court programs                 American University Clearinghouse




                                      - 80 -
         APPENDIX IX




- 81 -
- 82 -
         APPENDIX X




- 83 -
- 84 -
         APPENDIX XI




- 85 -
- 86 -
- 87 -
- 88 -
- 89 -
         APPENDIX XII




- 90 -
- 91 -
- 92 -
- 93 -
         APPENDIX XIII




- 94 -
- 95 -
- 96 -
                                                              APPENDIX XIV

         OFFICE OF THE INSPECTOR GENERAL
   COMMENTS ON THE JUSTICE MANAGEMENT DIVISION
          RESPONSE TO THE DRAFT REPORT


       The OIG has identified two issues in JMD’s response to our draft
report, (see Appendix XII), that we believe should be addressed. As a
result, we are providing the following comments on JMD’s response to the
draft report.

      The first comment in JMD’s response states, “. . . the OIG consider the
November 4, 2002 Department of Health and Human Services letter that
advises the National Household Survey Changed its methodology and cannot
be relied upon for trend information.”

       The November 4, 2002, Department of Health and Human Services
letter, (see Appendix XIII, page 95), identifies changes in the methodology
used to conduct the National Survey on Drug Use and Health (NSDUH),
formerly the National Household Survey on Drug Abuse. The letter also
identifies concerns related to comparing estimates based on data from the
2002 NSDUH with estimates based on data from surveys conducted prior to
2002 because of the methodology changes. Since our audit report only
includes estimates based on data from surveys conducted during 1985
through 2001, the changes to the 2002 survey methodology do not affect
the data included in our report.

      The second comment in JMD’s response states, “. . . the audit quotes
the Office of National Drug Control Policy (ONDCP) 2001 Performance Report
in reporting that no progress has been made in reducing youth drug use and
suggests that the OIG consider the upcoming ONDCP National Drug Strategy
which reflects significant progress based upon the December 2002
Monitoring the Future report.”

      The OIG has reviewed the upcoming draft National Drug Control
Strategy attached to JMD’s response. It should be noted that the document
provided by JMD was marked as a draft for “Internal Use Only - Not for
Dissemination outside ONDCP”; as a result, we did not include this document
in our report. In our audit report we note that teen drug use has increased
since 1992. Although the December 2002 Monitoring the Future report
includes findings that indicate teens who report using certain illicit drugs has

                                     - 97 -
been reduced from peak levels in 1995, 1996 and 1997, there is no
indication that teen drug use is down from the lower percentages reported in
1992.




                                   - 98 -
                                                             APPENDIX XV

            ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE THE REPORT


1.   Resolved. This recommendation can be closed when we receive
     copies of the approved FY 2002 Management Assertion Statement and
     the Attestation Report prepared by a certified public accounting firm,
     supporting that the DEA has revised its methodology to ensure that
     financial obligations reported to the ONDCP more accurately reflect its
     demand reduction programs.

2.   Resolved. This recommendation can be closed when we receive
     documentation from OJP supporting that its Drug Courts Program has
     been reported to the ONDCP as a demand reduction program.

3.   Resolved. This recommendation can be closed when we receive
     documentation from OJP supporting the amounts used in calculating
     the $6.675 million in Weed and Seed Program funding determined to
     be related to drug demand reduction activities.

4.   Resolved. This recommendation can be closed when we receive
     documentation from the BOP supporting that verifiable and
     measurable outcome based performance indicators have been
     established for its drug demand reduction programs.

5.   Closed.

6.   Resolved. This recommendation can be closed when we receive
     documentation from the COPS Office supporting that verifiable and
     measurable outcome based performance indicators have been
     established for the COPS program that encompass the COPS in Schools
     Program.

7.   Resolved. This recommendation can be closed when we receive
     documentation supporting the data source and methodology that the
     DEA plans to use for reporting on the performance indicators
     established for its drug demand reduction programs as a result of our
     report.

8.   Resolved. This recommendation can be closed when we receive
     documentation from OJP supporting that verifiable and measurable
                                   - 99 -
      outcome based performance indicators have been established specific
      to OJP’s strategic goals and objectives.

9.    Resolved. This recommendation can be closed when we receive
      documentation supporting that the BOP, DEA and OJP, in conjunction
      with the OLP, have developed a formalized mechanism for coordinating
      and sharing information related to drug demand reduction activities.

10.   Resolved. This recommendation can be closed when we received
      documentation supporting that the DEA has completed an evaluation
      of the degree to which its drug demand reduction strategic objectives
      can be achieved based on its existing resources, and that any
      recommendations that may from the evaluation have been
      implemented.




                                  - 100 -
